<html>
<title> - BENGHAZI AND BEYOND, PART I: WHAT WENT WRONG ON SEPTEMBER 11, 2012 AND HOW TO PREVENT IT FROM HAPPENING AT OTHER FRONTLINE POSTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                      BENGHAZI AND BEYOND, PART I:
                 WHAT WENT WRONG ON SEPTEMBER 11, 2012
     AND HOW TO PREVENT IT FROM HAPPENING AT OTHER FRONTLINE POSTS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 15, 2012

                               __________

                           Serial No. 112-189

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-680PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           BEN CHANDLER, Kentucky
MICHAEL T. McCAUL, Texas             BRIAN HIGGINS, New York
TED POE, Texas                       ALLYSON SCHWARTZ, Pennsylvania
GUS M. BILIRAKIS, Florida            CHRISTOPHER S. MURPHY, Connecticut
JEAN SCHMIDT, Ohio                   FREDERICA WILSON, Florida
BILL JOHNSON, Ohio                   KAREN BASS, California
DAVID RIVERA, Florida                WILLIAM KEATING, Massachusetts
MIKE KELLY, Pennsylvania             DAVID CICILLINE, Rhode Island
TIM GRIFFIN, Arkansas
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Michael Courts, Acting Director, International Affairs and 
  Trade, Government Accountability Office........................    18
Mr. William Young, Senior Policy Analyst, RAND Corporation.......    57
James Jay Carafano, Ph.D., Director, Douglas and Sarah Allison 
  Center for Foreign Policy Studies, The Heritage Foundation.....    66
The Honorable Ronald E. Neumann, President, American Academy of 
  Diplomacy......................................................    75

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Michael Courts: Prepared statement...........................    20
Mr. William Young: Prepared statement............................    59
James Jay Carafano, Ph.D.: Prepared statement....................    68
The Honorable Ronald E. Neumann: Prepared statement..............    77

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    93
The Honorable Gus Bilirakis, a Representative in Congress from 
  the State of Florida: Prepared statement.......................    94
The Honorable Mike Kelly, a Representative in Congress from the 
  Commonwealth of Pennsylvania: Prepared statement...............    95
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    96
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Material submitted for the record..............    98

 
BENGHAZI AND BEYOND, PART I: WHAT WENT WRONG ON SEPTEMBER 11, 2012 AND 
       HOW TO PREVENT IT FROM HAPPENING AT OTHER FRONTLINE POSTS

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    After recognizing myself and the ranking member, Mr. 
Berman, for 7 minutes each for opening statements, I will 
recognize the chairmen and ranking members of our various 
subcommittees for 3 minutes each for their opening statements. 
I will then recognize all other members for 1-minute opening 
statement.
    We will hear from our witnesses, and I would ask that you 
summarize your prepared statements in 5 minutes each before we 
move to the question and answers part with the members under 
the 5-minute rule.
    Without objection, the witnesses' prepared statements will 
be made part of the record and members may have 5 days to 
insert questions and statements for the record subject to the 
length limitation in the rules.
    Before I begin my opening statement, I also want to state 
for the record that my remarks and questions were written prior 
to an interagency classified briefing that the committee held 
yesterday afternoon.
    Further, I would like to note that Secretary Clinton has 
committed to testifying before our committee and the Senate 
Foreign Relations Committee on the Accountability Review 
Board's report, which is expected to be concluded by early to 
mid-December.
    Also before beginning, I want to assure the families and 
friends of four brave Americans killed in the attack on the 
consulate in Benghazi and our diplomatic personnel serving in 
high-risk posts worldwide that we are committed to recognizing 
what went wrong and what needs to be done to prevent any 
further American lives from being lost in such attacks. Our 
thoughts and prayers are also with those wounded during the 
attack as they face a long and difficult recovery. The Chair 
now recognizes herself for 7 minutes for an opening statement.
    The coordinated, preplanned and brazen attacks against the 
U.S. consulate in Benghazi on September 11th was an outrage. 
Also disgraceful is the sad parade of conflicting accounts of 
the attack that we have received from administration officials 
in the weeks and months since.
    Successive revelations and public reports indicate that the 
administration failed to adequately protect the American 
consulate and denied consulate requests for additional 
security. It has come to light that the administration was 
warned of the deteriorating security situation in Benghazi 1 
month before the attack on September 11th, with the personnel 
stationed at the post asserting that they could not withstand a 
coordinated assault.
    We also know that our consulate sustained two previous 
attacks this year and that there were approximately 10 Islamic 
militia and extremist training camps nearby. Yet the 
administration denied repeated requests for additional security 
measures.
    We have also learned that the consulate alerted both Libyan 
authorities and the administration about members of the Libyan 
security forces possibly compromised with ties to extremists as 
they were caught photographing the consulate prior to the 
attack, and still the consulate's requests for additional 
security were ignored.
    The consulate even warned that the situation was trending 
negatively and that the daily pattern of violence was the new 
normal given the minimal capabilities of the Libyan security 
forces. These revelations make clear that the security 
situation was deteriorating and that the administration was 
aware that the security was grossly inadequate.
    Under Secretary Kennedy publicly testified that the assault 
on September 11th was an unprecedented attack by dozens of 
heavily armed men. This explanation is unsatisfactory. You have 
the al-Qaeda attacks against our embassies in Kenya and 
Tanzania in 1998 and, more recently, the 2008 assassination of 
U.S. diplomat John Granville in Sudan, as well as repeated 
attacks in Pakistan, including the 2008 attack on our U.S. 
consulate general's armored vehicle, the April 2010 attack by 
militants against the U.S. consulate, killing three Pakistani 
security officers and a civilian in a gun battle outside the 
building, and the bomb attack on the vehicle of two U.S. 
consulate employees just days before Benghazi, on September 
4th. Adding to that the now publicly documented string of 
incidents prior to 9/11/12, how could the Benghazi attack have 
come as a surprise or be deemed as unprecedented.
    Unfortunately, the legitimate security concerns from 
personnel on the ground sometimes go unheeded by executive 
branch officials. For example, prior to the 1998 Nairobi 
attack, Ambassador Prudence Bushnell had warned of the extreme 
vulnerability of the Embassy, but her concerns were discounted 
based on faulty threat assessments and inadequate intelligence. 
In an op-ed in the aftermath of the Benghazi attack, Ambassador 
Bushnell stated that ``for 2 years before my team and I fought, 
nagged was word State Department colleagues used, to have 
security threats and vulnerabilities addressed. We were too 
close to the street, an easy target. Washington's assessment 
was that things were okay.''
    The events leading up to the attacks of September 11th of 
this year appear to repeat the same disastrous pattern. This 
time, we must learn the lessons and fix the problems. In 
addressing these underlying issues, we must move past the 
perennial question of what did the administration know and when 
did they know it and toward actually defining the problem.
    In this respect, I would ask our witnesses to consider the 
following: What are your recommendations for improving both the 
security assessment process within diplomatic security and 
overall Embassy security? What systematic issues do you believe 
need to be re-addressed? How do you believe the State 
Department should reevaluate the risk-assessment process for 
other vulnerable U.S. sites overseas as a result of the 
Benghazi attacks? What are the critical components of any re-
assessment regarding attacks against Benghazi as well always 
our posts in Egypt and Yemen on 9/11 and on the ensuing days 
and weeks? What are your thoughts or what can be done to ensure 
greater cooperation and coordination between U.S. agencies, 
including embedding other agencies in high-risk diplomatic 
posts with an expertise in security, such as an FBI presence 
beyond the LEGATT officer? What are your thoughts on altering 
individual missions within the Embassy structure, such as 
changing the Marine Corps' detachment's mission within high-
risk posts?
    The Government Accountability Office has been looking into 
this issue for some time and has repeatedly stated that the 
Diplomatic Security Service continues to face staff shortages 
and operational challenges that tax its ability to provide 
protection over an increasing number of dangerous posts. GAO 
has called for the State Department to perform a strategic 
review of diplomatic security so that it can properly allocate 
its resources and balance security needs with the diplomatic 
mission. However, the State Department has failed to follow up 
on this recommendation with the result, according to GAO, that 
diplomatic security, or DS, fails to perform adequate training 
and oversight.
    Among other things, without strategic planning, DS is 
forced to utilize stopgap measures, including detailing 
domestic officers to unfamiliar overseas posts, to make up for 
shortages in protective details.
    Realistic security assessments need to be conducted, and we 
must ensure that our frontline diplomats are provided the 
necessary protection to do their jobs effectively. Our 
frontline diplomats should be secure in the knowledge that the 
United States Government will provide for their safety while 
they carry out their duties on behalf of our country. Safety 
must not be sacrificed on the altar of vague and uncertain 
agendas or other pet projects, from climate change to bailouts 
for the Muslim Brotherhood in Egypt, whose value is 
questionable. Our diplomatic personnel deserve no less.
    With that, I turn to my friend, the ranking member, Mr. 
Berman.
    Mr. Berman. Thank you very much, Madam Chairman, and thank 
you for calling this hearing on a very important and pertinent 
issue, the safety and security of our embassies and missions 
around the world.
    It has been a little over 2 months since the tragic events 
in Benghazi, where terrorists attacked our consulate and killed 
four dedicated and courageous American public servants. I want 
to again convey my condolences to the families, friends and 
colleagues of Ambassador Christopher Stevens, Sean Smith, Glen 
Doherty and Tyrone Woods. These men committed their lives to 
advancing our values and interests in often dangerous places. 
We owe them an enormous debt of gratitude.
    Today we have responsibility to help ensure that we better 
protect Americans serving abroad; not only in Libya, but in all 
of our nearly 300 diplomatic posts around the globe. As 
Congress examines the Benghazi tragedy, it is important that we 
not jump to conclusions before we know all of the facts, and 
these facts are being gathered as we speak by an Accountability 
Review Board, or ARB. The ARB is tasked by the State Department 
to analyze what happened, why it happened and what can be done 
to reduce the risks facing our personnel in the future.
    The practice of establishing ARBs after security incidents 
at our diplomatic posts began in the 1980s based on a 
recommendation of the so-called Inman Report, which itself was 
a response to the bombing of U.S. facilities in Beirut which 
caused massive casualties. In 1986, Congress made the 
establishment of ARBs a requirement under law. Since then, at 
least a dozen of them have been set up under both Democratic 
and Republican administrations.
    This particular Accountability Review Board is being 
chaired by Thomas Pickering, a highly respected and experienced 
diplomat. His 45 years with the State Department, including 
service as Ambassador in six countries with serious security 
challenges, makes him particularly well suited for this 
position. Among the other members of the Board is retired 
Admiral Mike Mullen, until recently the chairman of the Joint 
Chiefs of Staff. So I think we have the right people in place 
for the job.
    Their report, along with the recommendations to Secretary 
Clinton, is supposed to be ready early next month, as the 
chairman mentioned.
    As a result of the ARB investigation, I expect the State 
Department to examine our security posture at posts around the 
world, including temporary facilities, like Benghazi, in order 
to determine whether the diplomatic security and the Overseas 
Buildings Operations Bureaus should institute new security 
procedures.
    There are several critical questions which I hope this 
hearing will help answer: Should we continue to maintain so-
called temporary facilities, like the Benghazi consulate, and, 
if so, how should we protect them? What steps can we take to be 
better prepared for the type of large-scale assault that took 
place at Benghazi? And are we devoting enough resources to help 
ensure the security of our overseas facilities?
    Secretary Clinton put it well when she said, and I quote,

        ``Our diplomats and development experts are on the 
        front lines, just like our troops, and the entire 
        United States Government needs to work together to 
        protect them. We will not retreat. We will keep 
        leading, and we will stay engaged everywhere in the 
        world, including in those hard places where America's 
        interests and security are at stake. That is the best 
        way to honor those whom we have lost.''

    I could not agree more.
    And I thank you, Madam Chairman and yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    We will now hear from the chairs and ranking members of our 
subcommittees, starting with Mr. Smith, the chairman of the 
Subcommittee on Africa, Global Health, and Human Rights.
    Mr. Smith. Madam Chair, thank you very much for convening 
this very important hearing and your leadership on this very 
important issue.
    In the 2 months since our Ambassador to Libya and three 
other Americans were murdered at the U.S. consulate compound in 
Benghazi, we have been deluged with numerous reports and 
explanations about what happened, many of which are 
contradictory. We are now waiting for the report of the 
Accountability Review Board and hope that it will provide 
answers to the many unanswered and disturbing questions.
    I would note parenthetically that 14 years ago, on almost 
the same date, another Accountability Review Board was convened 
to examine the 1998 attacks of our U.S. embassies in Kenya and 
Tanzania. I had the privilege of chairing the oversight 
hearings of that report and will be looking to see whether the 
lessons learned from those tragedies were implemented and could 
have prevented the deaths on September 11th.
    I would also note, as Mr. Berman pointed out so well, the 
Bobby Inman Report back in the 1980s was also very important 
and provided the framework upon which all of our diplomatic 
security, including setbacks, putting Mylar and other kind of 
protective protections on windows, all of that came out of the 
original Bobby Inman suggestions or recommendations. And, 
again, we also looked at how many diplomatic security personnel 
are needed, where they should be deployed. It was all part of a 
robust effort to protect Americans, especially our Ambassador 
abroad.
    I am deeply disappointed that State Department officials 
continue to be unavailable for public questioning by this 
committee. The classified interagency briefing yesterday is of 
some value, but the American people deserve a clear and honest 
public explanation of what happened at U.S. facilities in 
Benghazi and elsewhere in September.
    The American public needs to know why our U.S. Ambassador 
had minimal security protection in a location identified as 
dangerous as a result of no fewer than eight attacks on the 
U.S. compound and other Western facilities in the Benghazi area 
between April and August of this year. They also need to know 
why, given the circumstances I just described, our Ambassador 
was under the primary protection of a militia with questionable 
associations. They need to know why media representatives could 
go into the Benghazi consulate days after the September 11th 
incident and recover sensitive materials, including Ambassador 
Stevens' journal, that our Government obviously failed to 
secure and recover first. They need to know how our embassies 
in Egypt, Tunisia and other countries were so vulnerable to 
attacks by mobs, which not only defaced our facilities but also 
raised terrorist flags on what is essentially American 
sovereign territory.
    More recently, the resignation of General Petraeus has 
opened up even more questions, such as what is contained in the 
report he prepared following his visit to Benghazi. It should 
be very informative regarding who knew about what threats were 
involved there, when they knew about it and what they did with 
the knowledge they provided.
    I thank you, Madam Chair, and yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Smith.
    Mr. Ackerman, the ranking member on the Subcommittee on 
Middle East and South Asia is recognized.
    Mr. Ackerman. I thank the chair for calling this important 
hearing, and I look forward to learning the facts. I think it 
is important that we do that instead of some of us launching 
our own attacks.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Burton, the chairman of the Subcommittee on Europe and 
Eurasia, is recognized.
    Mr. Burton. Thank you, Madam Chairwoman.
    Let me just start off by saying that we had a hearing on 
this issue in the Government Reform and Oversight Committee 
shortly after this tragedy occurred, and a lot of the 
information that we received from government officials, 
publicly and privately, does not comport with the testimony of 
the people who were at that hearing. The people who were at 
that hearing consisted of Eric Nordstrom, who was the regional 
security officer for the U.S. mission in Libya; Lieutenant 
Colonel Andrew Wood, who was in charge of the military support 
team there, Special Operations Command support team, SST. It 
was also Charlene Lamb, who was in charge of all of the 
embassies and consulates around the world as far as security 
was concerned, who incidentally said when the attack took 
place, she was following it in real time immediately because 
she was in Washington in her office at the time. And then we 
also had Patrick Kennedy, who has testified numerous times 
about this issue.
    And the thing that bothers me the most is that Lieutenant 
Colonel Wood, in charge of the security force there, the SST, 
and Eric Nordstrom, the regional security officer, said time 
and time again they needed more security, particularly at 
Benghazi, and they were denied. In fact, even though Nordstrom 
tried to get more security there for Benghazi, he was told you 
are asking for the moon and the stars.
    Now, they were supposed to have five people there, but 
there was an unwritten law I guess that you could only have 
three there. And yet when Mr. Nordstrom and Lieutenant Colonel 
Wood went down and checked the area out, there weren't three 
even. There were supposed to be five, the unwritten rule was 
there were three, but there was only one there, only one. The 
security was lax.
    There were 230 different kinds of incidents, some pretty 
strong attacks, some not so strong, but nevertheless the 
security officer in charge and the lieutenant colonel in charge 
of the security people there contacted Washington time and time 
again and said we need more security, there is a threat of an 
attack. There had been one attack in Benghazi where they blew a 
hole in the compound wall, and yet time and again Ms. Lamb and 
Mr. Kennedy continually said no, we don't need those. No, we 
don't need those. And they have tried to cover their fannies a 
number of times in testimony here in this body or in this House 
and it does not comport. It is not consistent with what Mr. 
Nordstrom who was in charge of that region and Lieutenant 
Colonel Wood said.
    This is not only a tragedy, it is a perfect example of 
malfeasance at the State Department.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Burton.
    Mr. Faleomavaega is recognized. He is the ranking member on 
the Subcommittee on Asia and the Pacific.
    Mr. Faleomavaega. Thank you, Madam Chair.
    I, too, would like to also offer my deepest condolences and 
sympathies to the family of Ambassador Stevens and the three 
gentlemen that accompanied him in this tragic incident that 
occurred in Benghazi. I do want to associate myself with the 
comments of our ranking member, Mr. Berman.
    Hopefully, with the witnesses we have before us, we will be 
getting a little better understanding of what has happened.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Rohrabacher is recognized. He is the chairman on the 
Subcommittee on Oversight and Investigations.
    Mr. Rohrabacher. Thank you very much, and thank you for 
holding this hearing, Madam Chairman. I appreciate your 
leadership on this and other very significant issues.
    Last month, at the Committee on Oversight and Government 
Reform, I asked Secretary Lamb, who is the Deputy Assistant 
Secretary of State for International Programs in the bureau 
of--let's see here her exact title, well, I asked her, she was 
the one who was specifically responsible for the decision as to 
what level of spending they would have for security at the 
Benghazi consulate. I asked her whether budget considerations 
were actually part of her decision not to increase the level of 
security. She stated emphatically no, that was not part of it, 
although some Democrats on the committee and Vice President 
Biden in the debates during the recent Presidential campaign 
tried to shift the blame for this debacle to Congress. So it 
was not a budget consideration that caused this horrible 
situation where our people were murdered.
    What was it then? What did happen? Witnesses at the earlier 
hearing that I just referred to would not say, and we have been 
told over and over again, well, we are going to learn the 
details. But yet, just as late as yesterday, the President said 
that we would be learning all the details; he would be 
cooperating with Congress. Yet we have no witness from the 
administration here with us today to talk to us and to explain 
under oath what the details of this debacle really are.
    What is clear is that this administration, including the 
President himself, has intentionally misinformed, read that 
``lied,'' to the American people in the aftermath of this 
tragedy. Now President Obama has the gall to float the name as 
possible Secretary of State the name of the person who is the 
actual vehicle used to misinform the American people during 
this crisis. The arrogance and dishonesty reflected in all of 
this is a little bit breathtaking.
    And it is about time that the President of the United 
States decides to level with the American people. Let's find 
out the facts. Let's not stonewall this issue and cover up 
mistakes as appears to be happening today.
    Thank you, Madam Chairman for holding this hearing so we 
can get to the bottom of all this.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Sherman is recognized. He is the ranking member on the 
Subcommittee on Terrorism, Nonproliferation, and Trade.
    Mr. Sherman. I want to thank the administration for 
providing us with those very details, namely a classified 
briefing provided yesterday afternoon.
    The security of our diplomats depends upon the host 
country. We are here today discussing whether we should have 
had two or four or maybe even five security personnel onsite. 
It is by no means clear that that would not have simply led to 
more deceased security personnel.
    With the number of guns in Benghazi, the number of militias 
in Benghazi, it is by no means certain that even five of our 
finest security personnel could have been successful against 
this attack.
    We ultimately have to rely on the Ambassador and people on 
the ground to know what is safe and what isn't, where to go, 
where not to go, when and with what security, and ultimately 
they have to realize there is some risk. And they show heroism 
every day in going to places where they know there is some 
risk. And we should not criticize them because what they 
thought was a small and manageable but still possibly deadly 
risk turns out to be an absolutely fatal one.
    There is a lot of discussion about whether additional 
assets should have been provided, but much of that discussion 
focuses on Tripoli rather than Benghazi. There was a drone in 
the area, but press reports state that it was an unmanned 
drone.
    Congress has a role here. The administration asked us for 
$1.65 billion for security. The House cut that by nearly 10 
percent in negotiations with the Senate. It still ended up well 
below the administration request. Yet we cannot say that that 
particular congressional decision led directly to these 
results.
    There is all this discussion as to whether this was a 
carefully planned terrorist attack or an ad hoc mob whipped up 
by some recent reason to hate the United States, and I think 
much of our confusion relates to the idea of thinking it has to 
be all of one or all of the other. Newer press reports indicate 
that it was some of both, an attack that doesn't seem to be 
overly carefully planned and ad hoc additions from an armed 
citizenry in Benghazi that includes those that hate us.
    Finally, these unfair attacks on Ambassador Susan Rice are 
simply wrong. She had to rely on the intelligence that was 
provided. I sat here while Colin Powell provided the 
intelligence that he had regarding weapons of mass destruction 
in Iraq. Ultimately, State Department personnel have to rely on 
the intelligence reports they are given, and Susan Rice's 
integrity, capacity and record are beyond question. There is no 
political reason for the administration to have characterized 
this attack one way or the other.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you.
    We will now hear from Mr. Royce, who is the chairman of the 
Subcommittee on Terrorism, Nonproliferation, and Trade.
    Mr. Royce. Thank you, Madam Chair. Excuse my voice.
    We do have to rely on our Ambassadors on the ground and we 
should listen to them. And one of the eerie experiences here in 
reading the cables is to realize that there is a foreboding in 
them in a way in terms of how our personnel think they might be 
attacked, and it is the fact that those cables were sent and 
the fact that nothing was done that I think brings us here 
today.
    It is 2 months later, and too little is known about what 
took place. Too little is known about why we didn't respond to 
those cables, especially given the fact that the deteriorating 
situation in Benghazi was no secret, certainly no secret to the 
United Kingdom, no secret to the Red Cross. Even the security 
challenged U.N. were very, very concerned about what was about 
to happen. You had the U.K., the Red Cross closing their office 
as a result of attacks, RPG attacks on the motorcade. You had 
the bomb targeting our own mission there. And somebody 
obviously forgot to circle the calendar only 9/11. We do have 
some experience with attacks on 9/11.
    But it wasn't as though our own U.S. personnel were not 
warning us of this gathering storm, and that is the other 
aspect of this as you read the cables that is so concerning 
when Ambassador Stevens warns of a security vacuum, when 
another cable cites car bombings, gun battles in the street, 
growing Islamic influence. Another says al-Qaeda camps were 
growing and expressed concern about the mission's ability to 
even defend itself in these circumstances. So our mission there 
sat in a cauldron of weapons, of fighters, al-Qaeda upwind of 
Benghazi; its requests for more security denied. But yet a 
State Department official told Congress last month we had the 
correct number of assets in Benghazi at the time of 9/11.
    Well, that is not the way our personnel felt. I think we 
will find that the State Department, unfortunately, prioritized 
the normalization of the relationship with Libya above all 
else, no matter the facts on the ground, no matter the danger 
on the ground, and I think our personnel were wise enough to 
see that that was happening. I have several questions about 
what took place during the 6 hours, the 6 hours, that our 
personnel were under attack. Why wasn't more done to protect 
American lives during that time?
    Chairman Ros-Lehtinen. Thank you, Mr. Royce.
    Thank you, sir.
    Ms. Bass is recognized. She is the ranking member on the 
Subcommittee on Africa, Global Health, and Human Rights.
    Ms. Bass. Madam Chairman, Ranking Member Berman, thank you 
for your leadership and for providing an opportunity to better 
understand the events that transpired in Libya on the evening 
of September 11.
    I want to commend my colleagues on both sides of the aisle, 
for the vigorous call for hearings to get to the bottom of what 
took place in Benghazi makes clear the commitment we all have 
to the security of our diplomats. We have an obligation to the 
American people and to all who serve and represent our Nation 
to ensure that a tragedy such as this does not happen again on 
anyone's watch.
    The real danger I am concerned about, though, in a 
situation like this is to rush to judgment before we understand 
all the available information. I urge my colleagues to allow 
the State Department's ARB to finish its work so that we have a 
clear picture of the events of that tragic night. I think it 
would do a disservice to Ambassador Stevens and those who paid 
the ultimate sacrifice if we do not take the time necessary to 
understand what happened.
    We do an equal disservice not to come together and address 
security issues that may impact the nearly 300 U.S. diplomatic 
facilities abroad. It is vital that we look to future. 
Countless Foreign Service and civil servants represent our 
Nation in challenging environments around the world. They do so 
not for fame, not for fortune nor prestige, but out of a 
genuine sense of service and commitment to our Nation. Their 
sacrifice paid by those in Benghazi reminds us that we, Members 
of Congress, must do all in our power to ensure these brave and 
committed women and men are well protected in their service to 
this great Nation.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, Ms. Bass.
    Our last 3-minute opening statement will be Mr. Chabot, the 
chairman of the Subcommittee on Middle East and South Asia.
    Mr. Chabot. Thank you, Madam Chair.
    I know it has not been easy to pry information out of this 
administration, and I want to commend you for being relentless 
in your efforts over the last 3 months to get to the facts 
surrounding the attacks on American outposts and personnel in 
Libya, Egypt, Yemen and Tunisia on September 11, not only 
behalf of this committee, but on behalf of the American people 
as well and especially for our brave public servants who serve 
around the world, oftentimes in the face of imminent danger.
    I won't use all my 3 minutes, Madam Chair, because we want 
to be able to get to the testimony of our panel of witnesses 
this morning and questions from members, but I do want to take 
a moment to say a couple of words about our late Ambassador to 
Libya, Chris Stevens.
    Many members and staff on our committee had the opportunity 
to know and work with him even before he was named U.S. 
Ambassador and I think all would agree that he was one of our 
most able diplomats. I had the opportunity to visit with him in 
Libya a little less than a month before he and three other 
outstanding Americans were murdered in Benghazi.
    His enthusiasm for the job at hand was immediately evident. 
He was excited about the opportunity to help a nation newly 
freed from decades of brutal dictatorship. On my first night in 
country, I had the opportunity to join Ambassador Stevens for 
an IFTAR dinner with a number of newly elected Libyan 
parliamentarians. They were optimistic about building a 
democracy and creating a vibrant economy and restoring 
fundamental human rights for the Libyan people, and he was as 
enthusiastic about those prospects as they were.
    The murderers who took the lives of Chris Stevens and his 
colleagues should take no pride in their cowardly acts. They 
have merely shown the world that their brand of senseless 
violence is reprehensible and should be condemned by all decent 
people.
    Madam Chair, I hope these hearings, and I understand that 
today's meeting is just part one, will bring to light the true 
facts surrounding the September 11th attacks and will help to 
create a better diplomatic security system that will prevent 
similar attacks from taking place in the future.
    I look forward to the testimony, and I yield back the 
balance of my time.
    Chairman Ros-Lehtinen. Thank you, sir.
    I thank all the chairmen and ranking members of the 
pertinent subcommittees, and we will now beginning with 1-
minute opening statements from our members, starting with Mr. 
Sires from New Jersey.
    Mr. Sires. Thank you, Madam Chairlady, for holding this 
critical hearing and for investigating the events of September 
11 at Benghazi, and let me offer my condolences also to the 
families of Ambassador Stevens and the three U.S. personnel 
that were killed.
    You know, now that the election is offer, let's try to get 
to the bottom of what happened, because this an area in 
transition, and I have a funny feeling that we are going to 
encounter some of this incident again and again, and I want to 
make sure that the people that we send to assist in the 
transition in this area of the world are secure. I do not want 
to send Americans to a place where the security is not there 
for them to perform the job that is needed to make sure that 
the transition in these areas is a safe one. So I would hope 
that after the investigation, we can determine exactly what 
happened and we can make the necessary arrangements to make 
sure it doesn't happen again.
    I am also interested in terms of--there is talk about a 
safe house where we can put our personnel, and if you can 
expand on that, that would be great, because I think we need to 
make sure that everybody is secure in this area.
    Thank you very much.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Wilson of South Carolina.
    Mr. Wilson of South Carolina. Thank you, Madam Chair, for 
calling this hearing, and our heartfelt condolences and 
sympathy to the families of the four innocent Americans who 
were killed serving our country.
    The American people have legitimate questions and deserve 
answers from the President, the State Department, the 
Department of Defense and the CIA as to what happened on the 
evening of September 11th, 2012. Why did the administration 
refuse to send an immediate response after the consulate 
requested it during the 6-hour attack? Why did the 
administration place blame on a video rather than reveal to the 
world that it was an organized terrorist attack? And more 
importantly, why has the administration failed to provide 
answers to these valid questions after 2 months of inquiry?
    It is my hope that the appropriate officials of this 
administration will appear before Congress and provide us with 
the answers the American people deserve. Senator Lindsey Graham 
has reported 13 separate letters have been sent over the past 
month seeking explanations. The American people deserve to know 
for the protection of our country and American families.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chair.
    And I thank you Madam Chairman and Ranking Member Berman 
for convening this hearing to focus on the events of September 
11 in Benghazi. I want to begin by extending my thoughts and 
prayers to the family of the late Ambassador Christopher 
Stevens and the families of the other three American heroes who 
lost their lives in service of our Nation.
    I hope that as we conduct this hearing we recognize that we 
owe them a careful, comprehensive and thorough review of this 
matter.
    We ask Americans to serve our Nation all over the world and 
recognize that we need to be engaged in places all over the 
world, even in places that are dangerous, but we owe it to them 
to be sure that we are doing everything that we can to ensure 
the safety of our diplomats.
    I thank you for convening this hearing so we can review 
this in great detail. I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Judge Poe of Texas.
    Mr. Poe. We must have accountability for the assassination 
of four Americans on the anniversary of 9/11, accountability 
for those who failed to protect the Americans and 
accountability for the murderers. I have written a letter to 
Secretary Panetta asking him if there was evidence that United 
States weapons were used in the attack on our consulate until 
Benghazi. I haven't heard back from him, and I ask unanimous 
consent that that letter be made part of the record.
    Chairman Ros-Lehtinen. Without objection.
    Mr. Poe. The morning after the attack, I mentioned on the 
House floor that the terrorist group Ansar al Sharia claimed 
responsibility for the attack. This was public knowledge within 
24 hours of the attack. But for 2 weeks after the attack, the 
administration blamed the attack on a YouTube video. That was a 
patently false assertion at the time.
    We have yet to see any justice in this matter. The FBI took 
24 days to get to the attack site, long after media groups from 
all over the world had been there. Americans have been 
receiving much misinformation from our Government. The 
perpetrators need to be brought to justify and those 
responsible for the lack of security need to be held 
accountability, because justice is what we do in this country. 
And that is just the way it is.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Ms. Wilson of Florida.
    Ms. Wilson of Florida. Thank you, Madam Chair, and Ranking 
Member for holding this important hearing.
    The September attacks at the U.S. consulate in Benghazi 
ended tragically with the death of four Americans. First, it is 
important to honor the sacrifices of these Americans who gave 
their lives promoting and protecting American ideals of 
democracy and freedom abroad.
    I wish to convey my sympathy to the families of the fallen 
heroes.
    And to honor those Americans, it is essential that we 
maximize security protocols for U.S. diplomatic posts in 
volatile areas and ensure that contingency plans are in place 
to prevent loss of life and U.S. property abroad.
    The FBI and the State Department are thoroughly 
investigating the Benghazi events, and it is important that 
this committee provides appropriate assistance to those 
agencies so that we may get to the bottom of the situation, as 
well as find ways to prevent similar tragedies in the future.
    Chairman Ros-Lehtinen. Thank you, Ms. Wilson.
    Mrs. Schmidt of Ohio is recognized.
    Mrs. Schmidt. Thank you, Madam Chairman.
    First off, my heart goes out to the families of those who 
lost their loved ones, including Ambassador Christopher 
Stevens, Foreign Officer Sean Smith, U.S. Security Officers 
Glen Doherty and Tyrone Woods.
    But I think we need to have a real honest explanation of 
what happened. First off, could this have been prevented, and 
secondly, how can we ensure that those that are in harm's way 
will never have this happen to them again.
    I think the saddest part about all of this is that we are 
not getting clear explanations to date. This administration 
continues to put out things that are just not quite true, 
starting with the YouTube video, on September 11th, as the 
explanation, which continued on to September the 18th, until 
finally, on September 19th, Matthew Olson, Director of National 
Counterterrorism Intelligence, did confirm what we heard on 
September 12, that, yes, this was an attack conducted by al-
Qaeda terrorists. We need to know what the bottom of this is, 
and I hope we can find it out in this hearing.
    I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Schwartz of Pennsylvania.
    Ms. Schwartz. Thank you. I just wanted to add my words, of 
course, of sympathy for America the loss of Ambassador Stevens 
and the other fine Americans who lost their lives in Benghazi, 
and I hope that in this hearing and in future discussions, we 
will be able to honor their service by making sure we fully 
understand what happened, what could have happened differently 
potentially and, maybe most importantly, identify lessons 
learned so that our Embassy personnel at every level serving in 
dangerous parts of the world, as they do, that we protect them 
as best as we can. I hope that is the result of these 
conversations going forward.
    I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Johnson of Ohio.
    Mr. Johnson. Thank you, Madam Chairman.
    Like my colleagues, I, too, am saddened and outraged by the 
terrorist attack in Benghazi that claimed the lives of our four 
American citizens, including U.S. Ambassador Stevens.
    What makes this even harder for me to stomach is the 
administration's complete failure to provide answers, answers 
to the families of those killed, to Congress and to the 
American people.
    As a 26-year veteran of the United States Air Force and my 
last assignment being at U.S. Special Operations Command, I 
know and understand national security and what it takes to 
provide it. After 230 security incidents in a year at the 
Benghazi consulate, I am appalled that the administration could 
not anticipate escalating violence and then failed to step up 
security measures to protect our diplomats. Furthermore, we 
have seen blunder after blunder as the administration avoids 
responsibility and accountability.
    The delay tactics are unacceptable. So now that we have 
made it past the convenient distraction of an election, I 
expect to hear some real answers. It is time to 'fess up.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Deutch of Florida is recognized.
    Mr. Deutch. Thank you, Madam Chairman. Thank you for 
holding this hearing.
    Madam Chairman, the attack on the U.S. consulate in 
Benghazi on September 11 was a grave tragedy. The circumstances 
surrounding the deaths of Ambassador Christopher Stevens and 
three other brave Americans must not be spun for political 
gain. We must learn from this tragedy. We must get the facts, 
not make hasty determinations, certainly not hasty political 
determinations.
    We have an obligation to protect the thousands of Americans 
serving in our embassies and consulates around the world. Today 
we must focus on how to protect them, how to ensure that they 
are able to look at after American interests abroad, and how to 
ensure that they can continue to represent the American ideals 
that they stand for and that they represent so nobly in every 
corner of the globe.
    I look forward to discussing these issues today, and I 
yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Rivera of Florida.
    Mr. Rivera. Thank you very much, Madam Chairman, for this 
hearing. I also send my condolences to the families of those 
brave Americans, those patriotic Americans that gave their 
lives during this horrible incident. We need to always make 
sure and honor the great sacrifice they gave personally, but 
also to our Nation.
    I think we can all agree, Democrats and Republicans 
together, that these events are wholly unacceptable and that 
Americans demand accountability. The only way to achieve that 
accountability is to make sure and get all of the facts out.
    This hearing is an important step toward achieving 
accountability. Much more needs to be done, particularly on the 
part of the administration. But as important as getting that 
information out toward achieving accountability is to ensure 
that such an incident never, ever happens again. And I implore 
the administration to finally recognize that need to have 
accountability, get all the facts out, and ensure that a 
similar incident is never repeated.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Keating of Massachusetts.
    Mr. Keating. Thank you, Madam Chairman, ranking member.
    I just want to give my sympathy to the family members of 
those heroes who lost their lives.
    I want to also mention and thank the information we have 
had thus far, including in secure briefings in this regard.
    And I also want to just mention as someone who has been 
involved in many forensic investigations myself in my own 
career, things take time. The most important thing is to get it 
right, and the most important thing after that is to bring 
those responsible to justice, and I remain confident that that 
will occur.
    I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Turner of New York.
    Mr. Turner. Thank you, Madam Chair.
    In all these emergency situations, there are protocols and 
procedures that are in place. The timeline would suggest there 
are serious lapses in both the communication and judgment and 
our response time. I don't know if these procedures were 
followed. I don't know why it took 90 minutes before the 
Secretary of Defense even knew about this, and why were these 
delays made? And what was the cost of them? And what can we do 
to fix this in the future?
    Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Engel, the ranking member on the Subcommittee on the 
Western Hemisphere, is recognized now recognized for his 3-
minute opening statement.
    Mr. Engel. Thank you, Madam Chair.
    As we begin this hearing about what happened in Benghazi 
and the lessons we can learn, there is one thing I keep in mind 
throughout, the respect I have for America's diplomats and the 
gratitude this committee should show them. We ought never 
forget that the work of diplomacy has risks and that our 
Foreign Service officers who travel to all parts of the globe 
to promote and defend the United States' interests deserve our 
full support.
    For me, that is what this hearing is about. It is about 
understanding the facts of what happened in Libya and elsewhere 
on September 11 and 12 of this year and how we can learn from 
these events to make sure that our diplomats can achieve the 
difficult balance between security and forward presence. How 
can we ensure that there is enough security for Ambassadors and 
Embassy staff alike so that they can observe the countries 
where they are posted and meet with as many people as they can 
and yet do so safely?
    It is not an easy question. I am glad that Secretary of 
State Clinton has appointed a Blue Ribbon Accountability Review 
Board, led by former Ambassador Pickering, to look into what 
happened and to make recommendations. I think this committee 
should ask all of the questions it needs to ask today. We want 
to get to the bottom of what really happened, and there are 
some questions that need to be asked. But we should also defer 
judgment until the ARB issues its findings.
    Let us agree to make this hearing about how American 
diplomats can be as safe and effective as possible. Let's not 
devolve into a political spectacle. Friends, the campaign is 
over, the signs have been taken down. TV commercials are again 
about Ginsu knives and exercise videos and Americans have had 
enough of it. They want us to solve problems and not go on 
political witch hunts.
    I am very disturbed at some of the political rhetoric I 
hear. You know, Barack Obama was no more responsible for what 
happened in Benghazi than George Bush was for September 11th or 
that Ronald Reagan was with the blowing up of the U.S. Marines 
in Beirut. And in times of national tragedy, what we really 
need to do is band together as Americans and show that we are 
united against the forces of terrorism or others that would do 
us harm.
    I don't think playing political games is what we should do. 
We want to get to the bottom of this. We don't want anything to 
be covered up, but I think that we have to do that from a point 
of view of American unity; not to try to score political points 
here and there, not to try to point fingers at the President or 
the administration, but to say what went wrong and how can we 
fix it so that it doesn't go wrong in the future.
    So I, like my colleagues, want to talk about Ambassador 
Stevens and the other three martyrs who died. We will never 
forget their service, we will never forget them. Let's use this 
hearing to make sure all Americans in the future remain safe.
    I thank you, Madam Chairman, and I yield back the balance 
of my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Engel.
    Mrs. Ellmers of North Carolina is recognized for 1 minute.
    Mrs. Ellmers. Thank you, Madam Chairman.
    I echo the notion of sympathy for those families of our 
murdered Ambassador and the other Americans in this terrorist 
attack.
    I have to further say that America and these families need 
to know the truth, and that is what our job is. And I have to 
say that I deeply resent this continued notion on the part of 
our colleagues that this is a political issue and that there 
will be political gain made here. The fact that they continue 
on this pursuit actually makes it a political issue for them.
    Now, we have got to get to the bottom of this, and that 
means we are going to have to look at these issues 
constructively and find out what went wrong and how we can 
prevent it in the future, and we have got to put this political 
notion aside.
    Thank you, Madam Chairman. I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    You know, I just want to observe that a tragedy occurred. 
It ought to be something that brings us together. It ought not 
to be a political football. It ought not to be an opportunity 
to smear other people's reputations, prevent other people from 
participating in a meaningful way in the formation and 
enunciation of U.S. foreign policy. Those are tactics this 
Congress ultimately condemned during the Joe McCarthy era. 
Let's not revisit that. Let's not return to that.
    Let's have a rational, analytical examination of what 
happened so we can learn from this tragedy and try to take 
measures to prevent it. That is what we ought to do for the 
sake of our country, and I urge that we resist the temptation 
to persist in political posturing to try to find some elusive 
advantage. The election is over, and this tragedy needs to be 
dealt with.
    I yield back, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Kelley, the vice chair on the Subcommittee on Asia and 
the Pacific is recognized for 1 minute.
    Mr. Kelly. Thank you, Madam Chair.
    President Obama and Secretary Clinton have both claimed 
responsibility for the Benghazi situation. Yesterday at a press 
conference, the President said, and I quote, And you know, we 
are after an election now. I think it is important for us to 
find out exactly what happened in Benghazi, and I am happy to 
cooperate in any ways that Congress wants. We have provided 
every bit of information that we have, and we will continue to 
provide information, and we have got a full-blown investigation 
and all that information will be disgorged to done.
    Yet this administration has not provided any witnesses who 
are part of the State Department's chain of command with 
respect to diplomatic security to appear at this hearing: 
Specifically Hillary Clinton Secretary of State; Patrick 
Kennedy, Department of State Under Secretary for Management; 
Eric Boswell, Assistant Secretary of State for Diplomatic 
Security; Charlene Lamb, Deputy Assistant Secretary for 
International Programs, Bureau of Diplomatic Security; Scott 
Bultrowicz, Director of Diplomatic Security Service; and Jim 
Bacigalupo, Regional Director, Bureau of Diplomatic Security.
    Now, this administration has failed to respond to a letter 
I sent on behalf of 53 Members of Congress. It details 
questions regarding the security failures. I would like to 
introduce that into the record, if I may.
    Chairman Ros-Lehtinen. Without objection. And thank you 
very much, sir.
    Mr. Fortenberry, the vice chair of the Subcommittee on 
Africa, Global Health, and Human Rights, is recognized for 1 
minute.
    Mr. Fortenberry. Thank you Madam Chair for calling this 
important hearing today. Sadly, again, we must remind ourselves 
that Ambassador Stevens and three other Americans are dead, and 
we all wish to extend our heartfelt sympathies to their 
families.
    But I think it is important today at this hearing that we 
have a few questions answered. We need to know why the 
Ambassador's expressed security concerns and calls for help 
were unmet; why reinforcements never arrived; why the U.S. 
compounds were left unsecured for so long after these attacks; 
and why the official video narrative persisted so stubbornly 
long after it was clear that the attack that killed Ambassador 
Stevens was terroristic in nature.
    Madam Chair, I hope today's hearing is a constructive and 
honest unpacking of so many contradicting pieces of 
information. I yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Marino of Pennsylvania.
    Mr. Marino. I have no statement. Thank you.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Duncan of South Carolina.
    Mr. Duncan. Thank you, Madam Chairman.
    President Obama is sadly mistaken if he thinks the House of 
Representatives won't get to the bottom of the Benghazi tragedy 
and hold him responsible if the evidence points to the White 
House.
    If Ambassador Rice had nothing to do the Benghazi cover up, 
then why did the administration use her as a mouthpiece to 
mislead the American people on five Sunday talk shows? The 
American people will have answers to the questions of what led 
to the deaths of four brave Americans as well as the actions 
from the administration in the days following.
    With that, I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Griffin of Arkansas?
    Or Mr. Bilirakis of Florida.
    Thank you. So, with that, the Chair is pleased to welcome 
our witnesses on the first panel, Michael J. Courts.
    Mr. Courts is the Government Accountability Office, GAO, 
acting director in the agency's International Affairs and Trade 
Team. Mr. Courts began his career in GAO's San Francisco office 
and served overseas in the agency's former European office as 
well. Since 2003, he has directed GAO reviews on a wide range 
of U.S. Government operations and programs in the international 
arena to assist the Congress in carrying out its oversight 
responsibilities.
    His contributions have been recognized with numerous GAO 
awards, including a meritorious service award and an assistant 
comptroller general award. Without objection, the witness' 
written statement will be made a part of the record and Mr. 
Courts is recognized for 5 minutes.

STATEMENT OF MR. MICHAEL COURTS, ACTING DIRECTOR, INTERNATIONAL 
      AFFAIRS AND TRADE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Courts. Good morning Madam Chairman and Ranking Member 
Berman and members of the committee. I am pleased to be here 
this morning to discuss diplomatic security challenges at U.S. 
embassies and consulates overseas.
    This testimony is primarily based on a 2009 GAO report on 
challenges facing State's Bureau of Diplomatic Security. It is 
also based on subsequent work that GAO performed to follow up 
on the recommendations in that report.
    This work is part of a series of GAO engagements to review 
the State Department's efforts to secure our people and 
property at diplomatic locations worldwide.
    GAO was asked to testify this morning on the growth of 
Diplomatic Security's mission and resources in recent years and 
some of the key challenges that the Bureau faces in executing 
its work.
    The primary message of my testimony this morning is that 
Diplomatic Security's mission has grown substantially over the 
past decade and the Bureau's funding and personnel have 
increased considerably as a result.
    Despite these increased resources, however, the Bureau 
faces a number of operational challenges. State is maintaining 
missions in increasingly dangerous locations. Staffing 
shortages as well as other operational challenges tax the 
Bureau's ability to implement its mission. And finally, State 
has expanded Diplomatic Security without the benefit of 
adequate strategic planning.
    My first point is that Diplomatic Security's mission and 
resources have grown considerably over the past decade in 
reaction to a number of security incidents. From 1998 to 2009, 
there were 39 attacks on embassies, consulates, or official 
U.S. personnel, beginning with the 1998 attacks against the 
embassies in Kenya and Tanzania.
    In conjunction with its expanding mission, the Bureau's 
budget increased nearly tenfold from 1998 to 2008. The size of 
its direct hire workforce doubled during that period and its 
reliance on contractors increased dramatically as well.
    My second point is that despite these increased resources, 
the Bureau faces a number of challenges. First, State is 
maintaining missions in increasingly dangerous locations. The 
missions in Iraq and Afghanistan, for example, have required an 
extraordinary level of security resources on the part of State 
and even more so after the military withdrew from Iraq in late 
2011.
    State is also maintaining an increasing number of other 
dangerous posts, such as in Pakistan and Yemen and Libya, where 
the security situations are such that State would have 
previously evacuated such posts.
    Despite the Bureau's considerable staff growth, some 
offices have been operating with severe staffing shortages. In 
2008, for example, approximately a third of Diplomatic 
Security's domestic sub offices operated with a vacancy rate of 
25 percent or higher, affecting their ability to conduct the 
work and leading to backlogs and training gaps.
    We found other operational challenges as well. For example, 
we found that 53 percent of regional security officers didn't 
speak or read foreign languages at the proficiency level 
required by their positions.
    My final point is that diplomatic security's tremendous 
growth has been more reactive than strategic. While State's 
strategic plan identifies some security priorities and goals, 
it doesn't fully implement our recommendation to identify the 
resources needed to meet those goals or to address the 
management challenges we identified in our work.
    In summary, Diplomatic Security's mission and resources 
have grown tremendously over the past decade. Despite these 
increased resources, the Bureau faces a number of operational 
challenges, and State hasn't fully implemented our 
recommendation to conduct a strategic review of the Bureau of 
Diplomatic Security to ensure that its missions and activities 
address the department's priority needs as well as the 
challenges that we identified in our work.
    Madam Chairman and Ranking Member Berman, this concludes my 
prepared remarks. I would be happy to address any questions you 
may have.
    [The prepared statement of Mr. Courts follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, Mr. Courts.
    And I will begin the questioning. You said in your written 
testimony that while Diplomatic Security officials had taken 
steps to enhance performance management, they had not yet 
conducted the review that GAO recommended in 2009.
    How would a strategic review help the State Department with 
its Diplomatic Security mission to be ready for attacks after 
Benghazi? And one of the questions that I raised in my opening 
statement is, how do you believe that the State Department 
should reevaluate the risk-assessment process for other 
vulnerable U.S. sites overseas as a result of the Benghazi 
attack?
    Mr. Courts. Thank you.
    I would start by saying, as long as the department 
continues to levy missions on the Bureau of Diplomatic Security 
without regard to how it fits into overall departmental 
strategic planning and what the resource implications of those 
missions are, Diplomatic Security because, it is a support 
function will salute smartly and attempt to fulfill the 
mission, whether they have the resources required or not.
    So we think it is critically important that the department 
involve the Bureau of Diplomatic Security on a strategic level 
in their planning to look at the missions that they are 
requiring, to rationalize those missions, to look at the 
resources that are required for those and to make some honest 
and tough trade-offs about whether they can accomplish the 
mission within those resource constraints or whether they need 
to adjust the mission.
    Chairman Ros-Lehtinen. Well, you discussed the dangerous 
posts, Egypt and Yemen, what are the critical components of any 
reassessment regarding attacks against Benghazi and all of 
those trouble spots on 9/11 and ensuing days and weeks?
    Mr. Courts. Well, first of all, the work that we did found 
that there were a number of areas where the capabilities of the 
Bureau of Diplomatic Security were not where they should have 
been, and I mentioned some of the staffing shortages. Over a 
third of their offices, for example, domestically that had over 
25 percent vacancy rates; that means that work is not getting 
done in those offices, in some cases, or it is not getting done 
as quickly as it should be done. It also means that training is 
not being achieved for the agents in those offices, which 
ultimately affects the readiness at overseas posts when those 
agents rotate overseas.
    I mentioned foreign language deficiencies. That is an area 
that needs to be addressed as well. As a matter of fact, we 
found in some of our field work, at a post of strategic 
importance to the United States, a security officer received a 
telephone call from an informant and transferred that call to a 
locally employed staff person at the Embassy because she didn't 
speak the language. That could have compromised the informant's 
identity; it could have even threatened the informant's life. 
So it is critically important that they have those language 
skills.
    We also found experience gaps. Over a third of the officers 
in positions overseas were at grade levels below that which was 
designated for those positions. That means that those officers 
didn't feel as prepared to carry out those duties as they would 
like to have been. It also means that managers, leaders are 
distracted from their more strategic responsibilities to have 
to train those people and bring them up to speed. So there are 
a number of challenges that need to be addressed, and again, we 
think it all comes back to strategic planning at the 
departmental level.
    Chairman Ros-Lehtinen. Well, thank you very much.
    I yield back the balance of my time, and I hope that all of 
our members are able to read the thorough report from GAO.
    Thank you very much for your testimony.
    Mr. Berman is recognized for his questioning.
    Mr. Berman. Thank you very much, Madam Chairman.
    Mr. Courts, you said, in 2008, 25 percent of the Diplomatic 
Security positions in our different posts were unfilled. Do I 
understand you correctly?
    Mr. Courts. In 2008, over a third of the domestic sub 
offices of Diplomatic Security had vacancy rates of 25 percent 
or higher.
    Mr. Berman. Oh, over a third. That is different. Over a 
third of the posts had vacancy rates of 25 percent or higher.
    Mr. Courts. The domestic posts, not the overseas posts.
    Mr. Berman. Oh. That is very different. Forget that.
    Moving on.
    I am curious, though, this comment about strategic review, 
in the 2009 report, it says Diplomatic Security stated that it 
fills all positions in Iraq and Afghanistan before filling any 
other positions. That sounds like a strategic position. I mean, 
that is a broad conclusion that I guess the administration 
made, State made, Diplomatic Security made, about how to fill 
posts.
    Mr. Courts. That is correct. Diplomatic Security does fill 
the most critical positions first, especially in places like 
Iraq, before they fill other positions. As I mentioned, they 
will try to address life and death situations, and they make 
that their first priority, and rightly so.
    The problem is that they are often robbing Peter to pay 
Paul. And I mentioned, for example, those domestic offices. The 
problem with taking people from those domestic offices and 
putting them overseas is that there is other critical work that 
is not being done in those domestic offices. For example, 
passport and visa fraud investigations, and of course, getting 
that work wrong has lethal consequences as well.
    Mr. Berman. Just to make sure we understand, an unfilled 
position is a position for which there are appropriations; it 
is not a request. It is not a plan. The item has been funded to 
the level that would fund all the positions including the 
unfilled ones.
    Mr. Courts. It is not a requested position. It is an 
authorized position.
    Mr. Berman. Authorized and funded?
    Mr. Courts. Whether it is funded adequately or not, I can't 
speak to that.
    Mr. Berman. I would like to turn to the contractors issue. 
Resources for protection of our diplomats abroad, as you 
mentioned, have been stressed by operations in the two war 
zones and higher counterterrorism threats. In addition to the 
filling of permanent positions, we have massively increased our 
reliance on contractor, contract personnel. Part of the 
argument is it can save costs by not having to pay pensions, et 
cetera.
    Given the ongoing and long-term nature of these threats 
against our diplomats, is this practice sustainable? How is 
State properly overseeing these contracts? To your way of 
thinking, is there something in the effort to save that money, 
are we losing some of our protection by relying on contractors?
    Mr. Courts. The GAO work that we did in 2009 did not 
directly address that issue. I would say that when I mentioned 
that some of the staff that are Diplomatic Security staff, the 
direct hire staff, that were put in positions overseas, were 
contractors to manage those staff told us in our field work 
that they did not have the skills, did not have the training to 
properly manage contractor staff, so there are risks there.
    Mr. Berman. And then if I can get this last question in, 
how do we address these shortages? How should diplomatic 
security prioritize staffing requirements?
    Mr. Courts. We think that the department needs to, at a 
departmental level, take a strategic look at rationalizing the 
Bureau's mission. The Bureau itself isn't in a position to do 
that because, as I said, they are a support function. So if 
they are told they need to provide security for a post like 
Benghazi or anywhere else, they are going to salute smartly and 
try to carry out that mission.
    What the department needs to do is take a look at all of 
the enormous mission responsibilities that diplomatic security 
has accrued over the last 10 years or so and take a look at 
whether they have got the resources to actually carry out all 
those missions. They may need to make hard decisions. They may 
need to consider whether they need to close some posts in order 
to be able to adequately staff others.
    Chairman Ros-Lehtinen. Thank you, Mr. Courts.
    And thank you, Mr. Berman.
    Mr. Smith is recognized.
    Mr. Smith. Thank you, Madam Chair.
    Mr. Courts, thank you for your testimony and for the great 
work that GAO does on just about everything, so thank you so 
much for this.
    Let me ask you a couple of questions, Deputy Assistant 
Secretary Lamb said that there were the correct number of 
assets in Benghazi at the time of 9/11. She testified that 
budget considerations played no part in considering additional 
security.
    And I assume that part of those assets had to have been the 
local militia, the 17th February brigade, the local armed 
militia, which reportedly received monetary compensation and 
training from U.S. officials and were part of the protection 
force.
    My question first is, how adequate are these militias? Has 
GAO looked at that? How often do we use militias, as opposed to 
a central force or armed forces from a country?
    Secondly, if I could, I have been a big fan for most of my 
career of best value contracting. And unfortunately, except for 
Iraq, Afghanistan and Pakistan, best value is not used to award 
contracts to the technically acceptable firm offering lowest 
evaluated price, low bid, in essence, and I am wondering if 
that type of process has led to including those protection 
assets that are inferior.
    Best value is something I have been pushing at DoD for 
years, especially as it relates to my local military base, 
known as joint base. They go with low bids so often and get a 
shoddy product as a direct result. It seems to me best value is 
something to look at it, if you can comment on that as well.
    And finally, in your comments you do point out that we 
previously had identified many posts that did not meet all 
security standards delineated by the overseas security policy 
board and the Secure Embassy Construction and Counterterrorism 
Act of 1999. I note, parenthetically, I am the prime author of 
the Secure Embassy Construction and Counterterrorism Act of 
1999, and I would like to know, if in looking at that, whether 
or not our consulate in Benghazi fell short of the security 
standards that were proscribed by that act as well as by the 
Overseas Security Policy Board.
    Mr. Courts. Thank you.
    With respect to Benghazi, GAO does not have any information 
on the specific security arrangements at the consulate in 
Benghazi, and hopefully, the ongoing investigations by State, 
the FBI and others and also as a result of these Congressional 
hearings will help us understand what happened there, what 
lessons are to be drawn there. We do know from past work that 
State considers the likely threats that a post will face and 
its physical security posture when it makes those arrangements. 
But I would have to defer to the Department of State on what 
those actual security arrangements were in Benghazi.
    With respect to the contracting issue, we did not address 
that as part of this body of work. We do have specialists in 
GAO that have looked at contracting in contingency environments 
like Iraq, and I would be happy to put you in touch with those 
people to share their findings with you on that.
    In terms of the standards, the security standards at 
embassies, as you know, not all of State's overseas facilities 
meet their own security standards. Obviously, the newer the 
Embassy, the more likely they are to meet those standards. They 
have programs in place to try to upgrade and retrofit existing 
and older embassies to try to mitigate some of the deficiencies 
there. But clearly, the more people we can get into the newer, 
more robust facilities, the safer our people are going to be.
    I don't know whether or not the facility in Benghazi met 
those standards, but that is a question that should probably be 
asked.
    Mr. Smith. Could you pose that as well? Could you look into 
that as well, whether or not the Benghazi consulate met that 
standard? It seems to me it would be a very good line of 
inquiry for GAO.
    Mr. Courts. Thank you. I would say that there are a lot of 
questions that have arisen from the incident in Libya that have 
ramifications for our presence around the world, and GAO stands 
ready to assist the Congress and this committee in addressing 
that work.
    Mr. Smith. If you could take that back thank you.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Smith.
    I was going to recognize Mr. Sires of New Jersey, so I will 
go to Ms. Bass--no, then I will go to Mr. Sherman.
    Mr. Sherman. Thank you.
    I want to address this idea that somehow the confusion as 
to whether this was mostly a planned attack with some ad hoc 
help or an ad hoc demonstration with terrorists coming in or 
somewhere along that spectrum is somehow part of some 
intentional effort to mislead the American public for political 
reasons.
    If you take the view that this was a carefully planned 
attack, you would come away with the view that there are 
terrorists organized in Benghazi, something we all knew to be 
true before and after the Benghazi attack.
    If you take the position that there were people off the 
streets who were angry at us and willing to take violent action 
against us, then you would say our public diplomacy efforts in 
the Middle East have not been entirely successful, and there 
are hundreds of thousands of people with great anger toward the 
United States.
    I know of no political plan, nor could I conceive of one, 
that would ever be successful in trying to convince the 
American people that either of these problems weren't there, 
that our policy in the Middle East had been so successful that 
either all organized terrorist groups had been eliminated or 
that all public anger against America had been eliminated.
    Mr. Courts, are you aware of any evidence of an intentional 
effort to mislead the American people about what happened in 
those terrible hours in Benghazi?
    Mr. Courts. Congressman, the GAO's work did not address 
that issue. I am not in a position to answer that.
    Mr. Sherman. I understand.
    Focusing on future security measures, what types of lessons 
do you think will emerge from this current attack? Will those 
who mean us harm learn lessons as to how to attack us and as a 
result of, I realize, what is an incomplete review of what 
happened in Benghazi, what else should we be doing either with 
the physical facilities, the decision on where to have our 
diplomats or the number of security personnel to have or the 
number or the types of weapons that they should have with them 
on a regular basis?
    Mr. Courts. Thank you, Congressman. I think it is still too 
early to know exactly what lessons are to be drawn from 
Benghazi, with respect to, for example, whether it is a risk-
assessment issue, whether it is a capabilities issue, whether 
it is an information-sharing issue, we just don't know yet, but 
GAO does stand ready to assist, as I said, Congress in pursuing 
those issues going forward.
    Mr. Sherman. We have a Foreign Service that is in dangerous 
places today. We, as a country, need to decide how much danger 
to expose our people to. We can never have them entirely safe 
in places like Benghazi, under--with an American flag on top of 
the building. And I would ask your comment, but it is really 
more a decision for this committee to determine the extent to 
which we put our Ambassadors and other Foreign Service 
personnel at risk and evaluate what the benefits are of having 
somebody today in Yemen, what are the difficulties of not have 
been having somebody in Damascus, and when is it worth having 
somebody in Benghazi? I don't know, Mr. Courts, whether you 
have any comments or insight on that?
    Mr. Courts. I would say I would agree, first, that there is 
no way that our diplomats will ever be at zero risk. As long as 
the United States seeks to engage foreign governments and 
further U.S. foreign policy interests abroad, our diplomats 
will inherently be at risk. And as we saw with al-Qaeda linked 
attacks in Nairobi and Dar es Salaam and more recently, 
obviously, with the attacks in Libya, those who would seek to 
do harm to Americans have plenty of targets to choose from. But 
to mitigate that, State needs to have the capability in place 
to address those threats, and as I mentioned, we found in our 
work where there are a number of areas where those 
capabilities, frankly, were not where they should be.
    Mr. Sherman. I would just say that we really have to rely 
on the host government to a great extent, especially from an 
organized attack. And I don't know whether if we had had three 
or four more people on the ground, whether we would be talking 
about no American casualties or eight American casualties.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Burton of Indiana is recognized.
    Mr. Burton. First of all, I am not going to attack the 
White House, the administration.
    What I want to do is point to some of the what I consider 
malfeasance at the State Department. There were over a couple 
of hundred different kinds of incidents during the last year. 
But I want to focus on just some of the more important ones. On 
April the 11th, 2012, a gun battle between an unidentified 
armed group and forces loyal to the transitional national 
council occurred near the consulate in Benghazi. The gun battle 
included use of anti-aircraft guns and RPGs. This was back in 
April.
    In May, two RPG rounds were fired at the Benghazi office of 
the International Committee of the Red Cross, approximately 1 
kilometer from the consulate in Benghazi.
    In June 2012, Ambassador Stevens, who normally took morning 
runs around Tripoli along with members of his security detail, 
according to sources, they were posting his picture and talking 
about when he was running so he might be a target.
    On June the 6th of 2012, under the cover of darkness, 
assailants placed an IED on the north gate of the consulate in 
Benghazi, blowing a hole in the security perimeter that was 
described by one individual big enough for 40 people, 40 men to 
go through.
    On June 10, 2012, a two-car convoy carrying the British 
Ambassador was attacked in broad daylight with an RPG. And the 
British consulate then closed their consulate there.
    Late June 2012, the International Committee of the Red 
Cross was attacked again. They closed down the Red Cross office 
there.
    And weeks before the September 11th attack on our compound 
in Benghazi, unarmed Libyan guards employed by the British 
contractor Blue Mountain Group were being warned, warned by 
their family members, to quit their jobs guarding the consulate 
in Benghazi because there were rumors that there was going to 
be an impending attack. Now that sounds like to me you ought to 
be concerned about that.
    Now let's go back and talk about the people who were making 
decisions and who were in charge. Mr. Nordstrom was the 
regional director, regional director for security. This guy 
knew what was going on. He was there. And he contacted the 
people back at the headquarters in Washington, at the State 
Department, and here is one of the things that was said. He 
said, you know, we really need to do something. He is concerned 
there has only been one incident involving an American, but he 
was struck by fire. And the take away from that and for me and 
my staff, this is what somebody said back at the headquarters 
of the State Department, and here is what Nordstrom said, the 
guy that was in charge of the security there. The take away 
from that for me and my staff was abundantly clear; we were not 
going to get resources until the aftermath of an incident.
    And the question that we would ask again, and this is what 
he asked of State back at the headquarters here in Washington, 
how thin does the ice have to get before someone falls through? 
So he warned them that.
    Now Mr. Wood, the lieutenant colonel in charge of the unit 
there that was for security, here is what he had to say: We 
were fighting a losing battle. We couldn't even keep up with 
what we had. We were not even allowed to keep what we had.
    And then Mr. Nordstrom, once again, when he talked to State 
here in Washington, they said to him when he asked for more 
security, you are asking for the sun the moon and the stars. 
And his response was to the man he was talking to at State, 
Jim, do you know what the most frustrating thing about this 
assignment is? It is not the hardship. It is not the gunfire. 
It is not the threats. It is dealing and fighting against the 
people, programs and personnel who are supposed to be 
supporting me back at State. And I added it by saying, for me, 
listen to this, for me, the Taliban is on the inside of the 
building.
    Now they have said time and time and time again that there 
was a security problem. There were incidents of attack. The Red 
Cross closed down their office in June. The British consulate 
closed down their office in June. We were attacked. There were 
threats all the way up to weeks before the attack on September 
the 11th, and the people back at State here in Washington 
continued to deny additional security, and they continued to do 
away with security that was already there.
    Now, to me, that shows incompetence. To me, that shows that 
the people at State ought to be re-evaluated who were involved 
in this. And I'm talking about Ms. Lamb, and I am talking 
about--let me see who else it is--Mr. Kennedy. Those people who 
were in the decision-making process ought to be taken to task, 
and I have talked to him on a number of cases, and I am not 
going to go into the security meetings we have had. But what 
they have said does not comport with what was said at our 
Government Reform hearing.
    So I think this committee, Madam Chairman, ought to bring 
lieutenant Colonel Wood and Ms. Lamb before our committee to 
find out why there are inconsistencies between what we are 
hearing now and what we heard back when we had that other 
hearing.
    Chairman Ros-Lehtinen. I am sorry, Mr. Burton, I had not 
noticed that the clock had run.
    Mr. Ackerman is recognized. He is the ranking member of the 
Subcommittee on Middle East and South Asia.
    Mr. Ackerman. Let's just hang the guilty parties.
    You know, the stench of hypocrisy that hangs over this city 
today emanates from this room. I have listened, and I did come 
here to try to learn--but I have listened to my colleagues talk 
about the President of the United States and others in the 
administration using terms as ``deliberate lies,'' 
``unmitigated gall,'' ``malfeasance,'' which is the malicious 
and knowing evildoing, ``disgust,'' ``cover-ups,'' asking 
questions of who is responsible in this town for what happened?
    But if you want to know who is responsible in this town, 
buy yourself a mirror. Those of us who have been to these 
hearings and briefings and markups hear time and time again 
from our colleagues that this costs too much money, and we have 
to make cuts. Well, our evil-doing American-citizen-hating 
administration requested a lot more money than we provided.
    They requested for worldwide security $440 million more 
than you guys wanted to provide, $0.25 billion in security 
upgrades that you refused to make in this committee, and then 
you have the audacity to come here and say why wasn't the 
protection of these people provided for?
    And the answer is because you damn didn't provide it. You 
reduced what the administration asked for to protect these 
people. And the answer to the question is, how do you protect 
these people? It costs money, believe it or not. Whether they 
needed more sophisticated weaponry paid for at a bigger price 
or not doesn't matter. They didn't have the wherewithal or the 
personnel.
    And some of you keep referring to it as a consulate, which 
I would advise you costs a lot more money than the temporary 
mission facility that it actually was, more money that you 
refused to provide.
    Ask not who the guilty party is; it is you. It is us. It is 
this committee. And the things that we insist that we need have 
to cost money.
    Now, Mr. Courts, you are not just some bumpkin off the 
street who wound up here today. If you increased two people, 
who are security people, making an assumption that all security 
people cost the same amount of money--we do pay them in money 
right?
    Mr. Courts. Yes.
    Mr. Ackerman. If you increase from two to five, as a former 
math teacher, it suggests to me that that is a 150 percent 
increase from two to five. Is that accurate?
    Mr. Courts. Yes, sir.
    Mr. Ackerman. So if we went from two to five, if that was 
the right number, it would cost 150 percent more than this 
committee was willing to provide. Is that accurate? Assuming 
they all got paid equally.
    Mr. Courts. It would have cost more money.
    Mr. Ackerman. That is hedge, but that is okay. Could you 
tell me which of my colleagues on this committee was as 
bodacious in their insistence that we provide more money for 
American security in the State Department budget, I would 
appreciate it.
    And if any of my colleagues and I might have missed you and 
I apologize for overlooking, made that insistence that we give 
more State Department, please raise your hand, and I will yield 
to you.
    Six, five, four, three, two, one. Your time has expired.
    Chairman Ros-Lehtinen. Your time has expired, Mr. Ackerman.
    And we are so pleased to yield to Mr. Rohrabacher, the 
chairman on the Subcommittee on Oversight and Investigations.
    Mr. Rohrabacher. And again, Madam Chairman, thank you for 
your leadership over the years to make sure the American people 
get the straight story.
    And yes, I think that there is a smell of hypocrisy in 
politics here. Let's start by making sure that we go on the 
record again so that all may hear this, the last, my last 
colleague's statement notwithstanding, the lady who made, the 
official, I should say, happens to be a lady, who made the 
decision at State Department at what level of spending would be 
spent for security for the Benghazi consulate testified under 
oath that there was no budget consideration whatsoever in her 
decision--under oath. Anyone suggesting otherwise should not be 
pointing fingers of hypocrisy at this side of the aisle.
    Yes. This is not simply a cover up of a third-rate 
burglary. We have four of our diplomatic personnel dead, and it 
is not a McCarthy-era tactic to demand accountability and to 
demand that the American people are not misinformed about it to 
the point that they don't know what the threat is.
    So I ask this witness the level of security in Libya that 
has been determined, have you determined that it was, that 
there was a deficiency because of cost and that the decisions 
made to provide a level of security had anything to do with 
budget considerations? Are you contradicting Ms. Lamb's 
testimony in other words?
    Mr. Courts. Congressman, GAO doesn't have any specific 
information about the security arrangements in Benghazi. We 
have not done that work.
    Mr. Rohrabacher. Okay. Has GAO found, it is very difficult 
not to notice that the administration went out of its way for a 
number of days, at least a week, trying to present the image of 
this murderer of our diplomats as a crowd that went out of 
control because of movie rage, of some being upset about a 
misportrayal or a portrayal of Mohamed in a movie, that, of 
course, by insisting on presenting that as the evidence, we are 
downplaying the threat of radical Islam, which is out there and 
means to hurt us and to hurt Americans and specifically. Has 
there been any evidence that you have seen that people in this 
administration have been instructed not to use the words 
``radical Islamic terrorists''?
    Mr. Courts. Congressman, again, I am sorry. We did not 
address that issue in this work. I can speak to the broader 
problems facing diplomatic security, but we did not address 
that.
    Mr. Rohrabacher. Now, in terms of money for diplomatic 
security, let's note that this year the State Department has 
requested $1.4 billion for worldwide security for its 
facilities and personnel. In addition, they have requested $215 
million for the Bureau of Diplomatic Security. That comes to 
$1.6 billion. At the same time, this administration wants to 
give Iraq $850 million to train a police force and $900 million 
for military financing, which comes to $1.7 billion.
    How can the Obama administration and members of this 
committee justify giving more money to Iraq for its security 
than we are for giving for our protection of our own diplomats? 
I don't expect you to answer that.
    Is there any indication that, during your investigation or 
your what you have been trying to uncover, is there anything 
that would suggest that this was not a well organized, 
murderous hit on an American diplomatic personnel rather than 
just a crowd that got out of control?
    Mr. Courts. Congressman, GAO did not look at the incident 
specifically in Benghazi, so I can't comment on that.
    Mr. Rohrabacher. If it was a crowd that got out of control, 
was the security enough to handle that alternative?
    Mr. Courts. I can't answer that question either.
    Mr. Rohrabacher. Let's just, again, note that this is not a 
budget issue. Those people who are suggesting it is are the 
ones who have been guilty of trying to politicize this issue, 
demanding that the American people being given the correct 
information, rather than intentionally misinformed, is not 
something that we should tolerate.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    And Mr. Faleomavaega, the ranking member on Asia and the 
Pacific, is recognized.
    Mr. Faleomavaega. Thank you, Madam Chair.
    Madam Chair, I just want to say that, as I have mentioned 
earlier, that the name of Ambassador Stevens, and I think it 
was somewhat dismissive of me in not realizing that what I 
consider to be the roll of honor, not only for Ambassador Chris 
Stevens, Mr. Sean Smith, Mr. Glen Doherty and Mr. Tyrone Woods 
should be remembered names and not just mentioned as security 
officers who accompanied Ambassador Stevens. Truly they are 
true heroes as far as I am concerned.
    Mr. Courts, you mentioned that the GAO probably in the past 
10 years had given indication that there is a tremendous 
increase of the needs to provide necessary resources for our 
Diplomatic Security program. I am curious how many embassies do 
we have worldwide total and the total number of consulates that 
we current have right now?
    Mr. Courts. Congressman, the combined figure of consulates 
and embassies, I believe, is somewhere around 270. I don't know 
what the breakout is between embassies and consulates, but 
together they are around 270 or so.
    Mr. Faleomavaega. I have always been curious how our 
Government goes about when it, for example, makes a decision to 
build an Embassy here or there a consulate, and one example 
that comes to mind, and correct me if I am wrong, didn't we 
build a more than $900-million Embassy in Iraq? What was the 
total cost of that Embassy that we built in Iraq?
    Mr. Courts. Congressman, I don't have that figure at the 
top of my head. It was an expensive Embassy, though.
    Mr. Faleomavaega. And do we currently have about 1,000 
Foreign Service officers servicing that Embassy right now?
    Mr. Courts. I believe that is fairly close to what the 
figure is.
    Mr. Faleomavaega. And could that have been possibly the 
reason why that some of our Foreign Service officers or the 
resources of personnel that we had, if they had to be drawn 
from other consulates and embassies, Iraq is a classic example 
and that the Libyan Embassy and their needs could have been 
affected because of this.
    Mr. Courts. Congressman, I can't speak to whether the 
Libyan mission was affected by the need for staff in Iraq.
    I can say that when we did our work in 2009, we did find 
that staffing the mission in Iraq did result in staffing 
shortages in some other locations of Diplomatic Security.
    Mr. Faleomavaega. Has there ever been any GAO study or 
review procedure on how our Government goes about in measuring 
the kind of embassies that we build in any given country? Is it 
based on population or is it resources? Obviously, the number 
of people in Iraq and building a $900-million Embassy there 
strikes me as somewhat strange. How do we end up, I can see 
maybe having an Embassy like that in China or in India, but 
with Iraq only, what, 20 million people or less? And servicing 
1,000 Foreign Service officers? Can you share with us where we 
are with this?
    Mr. Courts. Congressman, GAO has not done any work to 
address the reasons for the size of the Iraq mission.
    Mr. Faleomavaega. Is it because no Members have ever 
requested that such a review process be taken.
    Mr. Courts. I don't believe they have requested a review 
with those specific objectives.
    Mr. Faleomavaega. You had also indicated that there were 
foreign language deficiencies, and some 53 percent of our 
diplomatic security officers don't speak the foreign language 
of that host country. How critical is that factor?
    Mr. Courts. It is very important. As I mentioned, we did 
find examples of where that did degrade their ability to 
operate in those countries. I mentioned, for example, a local 
informant in a country of strategic importance to the United 
States that was handed off to a locally employed staff, and of 
course, in a country like China, for example, we have to assume 
that all of the locally employed staff works for the Chinese 
Government. So that is, obviously, a very problematic thing.
    Mr. Faleomavaega. I am sorry, but if there is a deficiency 
of foreign language competency of our Diplomatic Security 
officers, what about the Foreign Officers themselves? You know, 
this impression sometimes our Foreign Service officers, and I 
am not demeaning them, but they come, but they don't really go 
out and be with the host country people, learning their 
language perhaps. Don't we have a very comprehensive program 
teaching our Foreign Service officers how to speak that foreign 
language?
    Mr. Courts. We do. But GAO has found that there are 
deficiencies across the department, not just in Diplomatic 
Security in terms of foreign language skills. It is worse in 
the Bureau of Diplomatic Security than in some other cones 
within State Department.
    Mr. Faleomavaega. So you suggest Congress needs to do 
something about it.
    Mr. Courts. I think State Department needs to do something 
about it. I am in not in a position, sir.
    Mr. Faleomavaega. My time is up.
    Thank you, Madam Chairperson.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Royce, the chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade, is recognized.
    Mr. Royce. Yes, I think that one of the problems for many 
of us who followed the story from the initial attack was simply 
that when we saw the attack, and we noticed that an al-Qaeda 
affiliate had taken credit for the attack, it just seemed at 
odds with the report about the attack being spontaneous, the 
report that it was an outcome of a protest that spun out of 
control, and the fact in five news shows that argument was put 
out there and then, 8 days later, that argument was still being 
debated, it just seemed rather fantastic to those of us who 
were following what was going on, had gone on, on the ground.
    And the concern for me, and I am glad you are here, Mr. 
Courts, one of my concerns is the emphasis that we put on 
security because when I read your report, you say that security 
is treated as a support function at the department.
    In your work, you found that these security issues are 
getting, what, high level attention or lower level attention?
    Let me start with that question.
    Mr. Courts. I believe the State Department takes security 
issues very seriously and certainly----
    Mr. Royce. I certainly agree with you, but the question is 
whether that gets top level attention from the Secretary, from 
top management, or are those issues second- and third-tier 
issues? Because one of the things that struck me about the 
original situation on the ground was, as I noted in my opening 
statement, there was this normalization of relations underway 
with Libya, and we had assumed that we would go forward with a 
certain approach that was at odds with our allies.
    Usually, as I recall, as I talk to foreign Ambassadors, 
they say we learn from the United States, and one of the things 
we do is we make certain that we have security to defend our 
interests there, and we do not rely on the locals. We make 
certain in an environment like this that we have security.
    It just seems as though in this theater, it was so much out 
of character with modus operandi, with what we have told our 
allies in the past about how you guarantee security. We are the 
ones that help teach it. And I just wanted to ask you about 
that.
    Mr. Courts. Congressman, again, I have to say with respect 
to the specific security arrangements in Benghazi, GAO's work 
did not cover that issue. That post didn't actually exist at 
the time we did our work. I would say, just as a general 
matter, that the host government in any country, whether it is 
Libya or anywhere else, according to the Vienna Convention, 
does have the primary responsibility for protecting our 
diplomatic missions just as we have that responsibility----
    Mr. Royce. They do have that primary responsibility. There 
is no doubt about that. But nevertheless, we tell our allies 
what you need to do is make sure you have security personnel in 
place. And it is the fact that a 16-member team in Tripoli were 
pulled out several months before; it is the fact that we have 
in our hands the memos from individuals, now deceased, 
expressing a concern that went unheeded, and we are trying to 
get our arms around what happened. But also how it would be 
possible afterwards that this video narrative was being pushed 
day after day in the light of facts that just seemed to 
indicate that, on 9/11, al-Qaeda planned a hit, took credit for 
it.
    And this is why it is important. It weakens our national 
security. It is important to learn what happened in Benghazi 
because at the end of the day, it could happen again. Al-Qaeda 
plans attacks over and over again. And one witness warns that 
al-Qaeda affiliates will have U.S. embassies in their sites now 
as a consequence for many years to come. So we really do have 
to get to the bottom of how this went awry because it seems so 
much to me out of character in terms of the way that we have 
taught security for our consulates.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Royce.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    And I thank Mr. Royce for the civil and inquisitive tone of 
his, how he frames this issue. I think that is proper, and I 
join with him in wanting to know what happened.
    I am sorry our friend from California, our other friend 
from California, Mr. Rohrabacher takes umbrage at the 
comparison to McCarthyism. But smear, character assassination, 
judgment before all the facts are in is McCarthyism.
    I have a letter here from one of our colleagues asking 
people to co-sign declaring that Susan Rice is unfit to be the 
Secretary of State, our U.N. Ambassador. This is before 
investigations are completed. This is before this hearing. It 
is signed the day before. We have apparently made up our mind. 
That is not an honest inquiry. And that is an attempt to 
besmirch, in my opinion, the reputation of a very talented and 
capable public servant.
    And I want no part of it. And when we do that, and I 
understand why Mr. Rohrabacher might be upset, but he invites, 
not he personally, one invites the kind of reaction you will 
get from this side of the aisle.
    The election is over. The President won reelection. The 
voices of the public were heard. They want us to cooperate. If 
you want an honest investigation of this tragedy, we will join 
you. But if you want to persist in trying to somehow to put 
this, lay this at the doorstep of the President or the 
Secretary of State or the United Nations Ambassador, you will 
find us ready and willing to resist to the teeth.
    Reference was made of the Oversight and Government Reform 
Committee hearing. I was at that hearing. I am a member of that 
committee. Let me quote under oath what Mr. Nordstrom, the 
security officer in Tripoli, said. What he said under oath, 
``Let me say a word about the evening of September 11th. The 
ferocity and intensive of the attack was nothing we had seen in 
Libya or that I had seen in my time in the Diplomatic Security 
Service. Having an extra foot of wall, a dozen guards or agents 
would not have enabled us to respond to that kind of assault.''
    He is saying it was unprecedented.
    Ryan Crocker today was interviewed, the former two-time 
Bush Ambassador and one-time Obama Ambassador, and he decried 
the tone of the discussion about the tragedy of Benghazi here 
on the Hill, worried that it was going to have spillover 
consequences all over the world in terms of Foreign Service. He 
pointed out the Foreign Service is inherently dangerous in 
certain circumstances and Libya especially.
    I was in Libya in May. Were you there, Mr. Courts?
    Mr. Courts. No, sir.
    Mr. Connolly. You didn't go to Libya?
    Mr. Courts. No, sir.
    Mr. Connolly. Well, what I found, and nothing has changed, 
is the country is not settled. There isn't a domestic 
peacekeeping force. There isn't some kind of host country group 
we can rely on to provide security. Surely you know that is 
true.
    Mr. Courts. Yes, sir.
    Mr. Connolly. There are militias all over the place. When I 
landed in Tripoli, there was a militia, not the government, 
guarding the airport in Tripoli.
    It is an inherently unstable situation. After 40 years of 
autocratic rule by Qadhafi, it is not settled. Just today, they 
finally inaugurated a government, but there are still seven key 
cabinet positions that are vacant. Tragedies happen.
    You mentioned, I think, in your testimony, Mr. Courts, that 
there were 39 incidents of attacks or attempted attacks on U.S. 
embassies and consulates in some period of time. Is that 
correct?
    Mr. Courts. That is correct.
    Mr. Connolly. And I don't know, in the history of the 
Foreign Service, we have had tragedies, have we not?
    Mr. Courts. Yes, Congressman.
    Mr. Connolly. Are they always avoidable?
    Mr. Courts. I can't answer that question. Our work didn't 
address whether they were avoidable or not.
    Mr. Connolly. Some of them might have been; some of them 
might not have been. Is that correct?
    Mr. Courts. That is probably correct.
    Mr. Connolly. Finally, I would just say, Madam Chairman, 
and I would like to ask unanimous consent to enter the full 
testimony that we received in the Oversight and Government 
Reform Committee.
    Chairman Ros-Lehtinen. Without objection, subject to the 
limitations.
    Mr. Connolly. On page 7 of his testimony, he actually lauds 
the State Department's response to his request for resources 
and delineates them in great detail under oath.
    I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Chabot is recognized. He is the chairman of the 
Subcommittee on Middle East and South Asia.
    Mr. Chabot. Thank you, Madam Chair.
    Mr. Courts, yesterday President Obama held his first news 
conference since March, now that the election is over of 
course, and he defended Susan Rice, who clearly misled the 
American people, saying she shouldn't be criticized for her 
false statements because she had nothing to do with Benghazi. 
The logical question this raises is why do they send her out to 
tell the American people what happened about Benghazi a person 
who had nothing to do with Benghazi? Now I assume your GAO 
report didn't address that.
    Mr. Courts. That is correct, Congressman.
    Mr. Chabot. Thank you. And for weeks, the administration 
stuck to the story about a video causing the attack on 
Benghazi, that it was not a terrorist attack, that it was just 
a spontaneous response to this video, that it arose from street 
protests, yet in real time, the State Department and others saw 
that there was no protest going on, that the streets were 
quiet, and that it was clearly a terrorist attack carried out 
over a fairly extended period of time. Your GAO report didn't 
cover that either, I assume?
    Mr. Courts. We did not, Congressman.
    Mr. Chabot. Now, it appears to many Americans that this 
administration failed to adequately protect U.S. personnel, 
including a U.S. Ambassador and other--three other very 
important American citizens, resulting essentially in their 
deaths in Benghazi, then misled the American people about what 
happened. I assume the report really didn't go into that area 
either.
    Mr. Courts. Congressman, no. The work that we conducted, 
concluded in 2009.
    Mr. Chabot. Let me address a little more specifically then. 
In other high-risk countries, the State Department uses armed 
contract forces provided by private security companies to 
protect our diplomats. It is my understanding that such 
security personnel were not deployed in Libya, and that is 
apparently because of objections by Libyan authorities. Could 
you address that issue?
    Mr. Courts. Congressman, I don't have any specific 
information about the security arrangements in Libya.
    Mr. Chabot. It is my understanding that the security 
personnel oftentimes in local countries may not be up to the 
same standards that American companies, with our much more 
experienced and oftentimes better-equipped, et cetera, 
personnel, are able to bring about in an area. Your report 
didn't cover that?
    Mr. Courts. We didn't address that issue, Congressman.
    Mr. Chabot. Are you able to address the--some of the 
differences between the security that was in place in Tripoli, 
where I was--I was not in Benghazi but in Tripoli, at the 
Embassy there, in comparison to the consulate or the temporary 
mission, as Mr. Ackerman referred to it, in Benghazi?
    Mr. Courts. Congressman, our work was conducted before 
those posts existed.
    Mr. Chabot. Relative to the local security forces, rather 
than American companies or other companies of a similar nature 
that are protecting our embassies around the world, are you 
aware of what other embassies we may have locals rather than 
American companies protecting?
    Mr. Courts. Congressman, I believe we use, we contract with 
local companies in quite a few countries around the world for 
guard services around our embassies and consulates.
    Mr. Chabot. Are you able to comment on any comparisons 
between the locals versus our folks?
    Mr. Courts. I don't have that information. We didn't 
address that as part of our report. I could try to get that 
information for you.
    Mr. Chabot. Thank you.
    I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot.
    Mr. Higgins is recognized.
    Mr. Higgins. Thank you, Madam Chair.
    Just to provide some context here, I remember traveling in 
the summer of 2006 to Lebanon. It was immediately after the 
Hezbollah-Israeli war, and we had to fly from Cyprus to the 
United States Embassy in Beirut along the Mediterranean Sea by 
helicopter. We landed, and the Ambassador at the time Feldman, 
Ambassador Feldman brought us into the residence, the 
Ambassador's residence, and he had an ashen look on his face 
and said that anti-American sentiment is at an all-time high. 
We later left the residence and drove to a meeting with Prime 
Minister Siniora to the streets of Beirut, and I was sitting 
next to the Ambassador, and I asked him if he was okay. He said 
he would be tomorrow because the United States Marines were 
doing to dispatch 75 Marines to guard the Embassy, and for the 
past week and a half, they had been guarded by the Lebanese 
national army. And his concern was that if they decided to make 
a move, Hezbollah, which is a violent Shi'a group committed to 
violent Jihad, on the Embassy, perhaps the Lebanese National 
Guard's loyalties would be mixed.
    I think the point here is that diplomacy is tough work, and 
it is very, very dangerous work. By definition, diplomats are 
supposed to mix with the people and mix with the culture, not 
hide inside the Embassy when things get tough, because the real 
work and the tough work of diplomats occurs during the toughest 
times in the most difficult places, like Benghazi.
    For the past 40 years, we, the United States, there have 
been attacks on U.S. diplomatic targets, including 64 under 
President Bush. There were fewer under Clinton than there were 
in the first George Bush. There were fewer under the first 
George Bush than under Reagan, a little bit more under Carter, 
a little bit fewer under Ford, and a little bit more under 
President Nixon.
    The point is I think what I have heard here consistent with 
Mr. Ackerman's concern is that we are looking to assign blame 
rather than looking to find exactly what happened and how we 
can take actions to protect our diplomats more effectively. And 
I could easily talk about the budgetary issues and the fact 
that this Congress rejected the administration's request for 
over $400 million more for Embassy security than they received. 
You hear the assertions of projecting weakness within a 
political debate or peace through security.
    Mr. Ackerman is right; there is a stench of hypocrisy. And 
if we are serious, if we are serious as a body in trying to 
protect our diplomats, the world is not getting any easier. It 
is getting a lot more complicated. It is getting a lot more 
fouled and confused, and as these places seek to evolve to 
become more stable, our diplomats are going to continue to be 
in danger in all of these places.
    So I really don't have a question, but I just think the 
context is important here, and we need to understand that 
America is the greatest country in the history of the world, 
and it is because we export our values. And when we as Members 
of Congress conduct hearings that really don't seem to be 
intent on getting to the root of the problem, but rather saying 
that they are more responsible than we were, I think we do a 
great disservice to America, to Americans, but more 
importantly, to America's unique place in the world.
    With that, I will yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Wilson of South Carolina is recognized.
    Mr. Wilson of South Carolina. Thank you, Madam Chair.
    And I would like to join with my colleagues in thanking the 
persons of the Foreign Service. It is such remarkable bravery. 
In fact, an Ambassador who I have grown to respect is Ronald 
Neumann, who is here today, and I am very grateful for his 
service in Algeria, Bahrain. I had an opportunity to visit with 
him in Afghanistan. So I know what an extraordinary challenge 
it is and the dedicated work that is being done.
    Additionally, I think we need to point out that there 
actually has been--lightning is going to strike--bipartisan 
cooperation in regard to worldwide security protection, and 
that is that in 2012, the House increased the funding for the 
worldwide security protection by almost $100 million above the 
2011 levels, and increased the 2012 funding for Diplomatic 
Security by $5 million above the administration's request.
    And I appreciate, Mr. Courts, in your report that you 
indicate that Diplomatic Security has increased its budget by 
from about $200 million in 1998 to $1.8 billion in 2008; 
additionally, that in 2011, there are 35,000 security guards 
that are available for Diplomatic Security. Additionally, in 
2011-2012, spending bills that were passed by the House--it was 
bipartisan--there were many Democratic votes for this, and it 
did pass the Senate and was signed into law by the President, 
the House did not unilaterally set levels for Embassy and 
Diplomatic Security. It did not even have the power to do so.
    Then that gets to, who makes the determination of the level 
of protection for each of our facilities?
    Mr. Courts. Congressman, that is a decision that is made 
within the Department of State.
    Mr. Wilson of South Carolina. So it wouldn't be directed by 
Congress. It would be the priorities of Department of State; is 
that correct?
    Mr. Courts. With respect to the security arrangements at 
individual posts, yes, that is correct.
    Mr. Wilson of South Carolina. And based on that, something 
that is of concern, again, I am confident bipartisan, that 
there were unclassified cables indicating that there was 
increasing danger in Benghazi. Was it addressed?
    Mr. Courts. Congressman, again, I am sorry, GAO did not 
address what happened in Benghazi. Our work concluded in 2009, 
before those posts existed.
    Mr. Wilson of South Carolina. Do you know, even though it 
concluded prior to the attack, was there any increase of 
security provided based on Ambassador Stevens' concerns?
    Mr. Courts. Again, Congressman, I am sorry, our work did 
not address the events in Libya specifically.
    Mr. Wilson of South Carolina. These issues are so 
important. It really does concern me that Senator Lindsey 
Graham has pointed out there have been 13 separate letters sent 
to the Department of Defense, CIA, to the President, asking 
specific questions that are of great concern to the American 
people, and in particular great appreciation of our diplomatic 
personnel, and a concern, too, is proper protection being made. 
Why would there be a delay of receiving a response from a group 
of U.S. Senators who are vitally concerned?
    Mr. Courts. Congressman, I can't speak to that. Our work 
didn't address it.
    Mr. Wilson of South Carolina. In the future, do you think 
that there should be a more prompt response so that the 
American people do understand the dangers that are being faced 
by our diplomatic personnel?
    Mr. Courts. Congressman, I would say that we need the 
details to come out to know what exactly the lessons are that 
should be drawn from Benghazi. GAO doesn't have those details 
at this point.
    Mr. Wilson of South Carolina. For so many of us, it was 
shocking what appeared to be a diversion indicating there was a 
protest, and then we found out it wasn't a protest. Then it was 
alleged that it was a protest based on a video, which actually, 
since it wasn't a protest, it wasn't due to the video. People 
are really legitimately concerned. And, for me, as to whether 
it was a terrorist attack, the moment I heard it, within 15 
seconds I knew this was sadly a celebration of the mass murder 
of American citizens on September 11, 2001. And the American 
people need to know that our Government responds quickly.
    I yield the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Kelley, the vice chair of Asia and the Pacific, is 
recognized.
    Mr. Kelly. I thank you, Madam Chair. Mr. Courts, thank you 
for being here today.
    When I read through your report, it really goes back to the 
2009 report where you--I don't know that you were part of the 
department at that time, but I know you guys are the watchdogs 
for the American taxpayer dollar. You were suggesting then that 
the Department of State do a review.
    Mr. Courts. That is correct.
    Mr. Kelly. Has it ever been done?
    Mr. Courts. It has not been done. We don't consider that 
they fully implemented that recommendation, no.
    Mr. Kelly. Did they implement any of it?
    Mr. Courts. The Diplomatic Security Bureau itself has taken 
a number of measures to improve their strategic planning. But 
what we recommended is the Department needed to do a strategic 
review of the bureau, because the Bureau of Diplomatic Security 
is not in a position to say no when they are asked to provide 
support. So we really think that the Department needs to take a 
hard look at all the missions, all the many diffuse missions 
that the Diplomatic Security Bureau is responsible for, and 
make some hard choices about what they can achieve with the 
resources that they have or whether they need additional 
resources or whether the mission itself needs to be reduced.
    Mr. Kelly. So what I am trying to understand is though in 
2009, we are in 2012. So the results of September 11 of this 
year, then we got to ask, so 2009, 2010, 2011, now we got 
almost all the way through 2012 and there is still this 
accountability that has not been taken into account. And I am 
just trying to understand that when we look at this whole 
event, it is not about the money, because the money was there. 
In fact, it was greater amounts than were there before. And we 
also know that the Department of State has discretionary power 
over how the money would have been spent anyway. So it can't be 
that.
    Ms. Lamb herself said it wasn't for lack of money, so I 
think it is kind of foolish to say that somehow it was a 
budgetary thing and that we put these people at risk. We didn't 
put them at risk. We actually put them at risk by completely 
ignoring a full year ahead of time the fact that this was a 
very vulnerable and very violent place.
    I don't know, and I heard Mr. Nordstrom, I was there to 
hear his testimony, he talked about what they tried to do to 
increase the protection at the consulate or outpost, whatever 
you want to term it. This thing gets bounced around too much. I 
think the question that begs to be answered is why did we leave 
our Ambassador--and my colleague said he was there in Libya--he 
said you weren't, so you didn't see it, but he would tell you 
how bad it was. I mean, it was absolutely unstable. It was kind 
of a Wild West show.
    So my question is so if that is the case and if it wasn't 
about money and it wasn't about budgetary counts, why would we 
continue to put our Ambassador at risk in an area that we took 
our security support team, Special Ops people, if it wasn't 
about the money, and we replaced them with $4-an-hour Libyan 
nationals, who were unarmed, by the way. So an area that is so 
vulnerable, so violent, everybody that goes there says that it 
is a Wild West show, and we are saying, yeah, you know what we 
thought? We thought we should dumb down our security for that.
    The GAO had nothing to do with that. Were the taxpayer 
dollars spent the right way? Did we get a return on our 
investment? I would say that it goes far beyond what we spent. 
We spent four lives because of a lack of attention to an issue 
that everybody says was completely out of control and unstable. 
It just doesn't make sense.
    And forget the political end of it. Why we would put an 
Ambassador and other Americans at risk in that area and somehow 
back away from it now and say we just didn't see it coming? We 
saw it will coming for a full year. There were 230 attacks in 
Libya. There were 48 in Benghazi; there were two on that 
consulate. The day he died, Sean Smith tweeted to somebody, if 
we do not die tonight, we have to get these Libyans out of here 
that are taking pictures of the inside of our consulate.
    My goodness. Everybody saw it coming. When the 
International Red Cross is targeted and attacked, when the 
Brits pull out and we are the last flag flying and we are 
saying we are surprised this happened because we had really 
normalized relations there; we even took their airplane away 
from them because it was so safe. At same time, we were telling 
people, travelers, don't go there, it is a danger zone.
    So, Madam Chair, I thank you, or Mr. Wilson, you are 
sitting in the chair right now, and I appreciate what the GAO 
does, and I appreciate your coming here today. But the answers 
really are that we had the money; we had the resources; we got 
the ability to do it. This falls squarely on the shoulders of 
the Secretary of State, the Department of State, the President 
of the United States. They turned a blind eye and a deaf ear to 
an area that was so unstable.
    With that, I yield back.
    Mr. Wilson of South Carolina [presiding]. Thank you very 
much, Mr. Kelley.
    We now proceed to Congressman Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And thank you, Mr. Courts.
    I would like you to, if you could, address what the 
implications of the Budget Control Act of 2011 are and what 
sequestration, what the impact would be on Diplomatic Security 
and the funding that is necessary. The across-the-board 
reductions, which are scheduled to occur on January 23rd, 2013, 
are estimated at about 8.2 percent of funding for security of 
our diplomats could be reduced. I just wonder if you have had 
an opportunity to look at what the implications of that kind of 
reduction would be on Diplomatic Security, kind of all across 
the world.
    Mr. Courts. Congressman, no, GAO has not conducted that 
work. I can't answer that question.
    Mr. Cicilline. Well, I mean, is it fair to say a reduction 
of that magnitude would not enhance security for our diplomats?
    Mr. Courts. Congressman, I don't know if the State 
Department were to take cuts, where they would apply those 
cuts, so I can't answer that question.
    Mr. Cicilline. I yield back. Thank you, Mr. Chairman.
    Mr. Wilson of South Carolina. Thank you, Mr. Cicilline.
    We now proceed to Congresswoman Jean Schmidt of Ohio.
    Mrs. Schmidt. Thank you, Chairman.
    I am concerned about what happened on September 11th, not 
for political reasons but for security reasons for the 
individuals, both here and abroad, because as I listened to all 
of the missteps that happened, I think it boils down to one 
thing, and it is called miscommunication.
    First and foremost, we know that when the event occurred, 
somebody made up a tale that it was a YouTube video, and it was 
a spontaneous attack. Now, how did they determine that, and how 
did it get so widespread that this administration continued the 
tale all the way until the 18th of January? Now, I don't 
believe that this administration did it because they wanted to. 
I think that the miscommunication occurred and continued 
because further miscommunications occurred, which does a 
disservice to our President, to our Secretary of State and to 
everyone else involved.
    But the other part that bothers me with this 
miscommunication is if this happened, why didn't we know 
something was going to happen ahead of time? Why didn't our 
intelligence community see it? I know they listen to chatter. 
Was there no chatter, or was it accidentally missed? I think 
that is another question that has to be answered, or else we 
are going to have this happen again.
    Over the break, I saw a very good movie called ``Argo,'' 
and it is about what happened in Iran back in the 1970s. And, 
yes, it is a Hollywood version. But you know what was 
strikingly similar? It was miscommunication. And if we had 
miscommunication 40 years ago and it is occurring today with 
all the technology that has evolved since then, I think we need 
to find a way to make sure that it is prevented in the future.
    I think the second thing that bothers me in all of this is 
the security or the lack of security, and could this have been 
prevented? Maybe it could have been with more money and more 
people on the ground. Maybe it was going to happen anyway. And 
I think whatever investigations occur need to look at that, 
because when you come up with a report about how we spend our 
money and should we improve on the spending of the money, it is 
not just spending money; it is spending it in the best manner 
possible so that we don't have these situations in the future.
    And it is really not a question to you. It is really what I 
think the frustration is with the American people out there on 
this situation. They want to know what happened and why it 
happened. They don't want the political rhetoric with it. They 
just want an honest and clear answer. So all I am saying is 
that is what I am searching for. And if you have any crystal 
ball wisdom to anything that I have said, I would love to have 
the answer.
    Mr. Courts. I would just add that there are a lot of 
questions that have arisen as a result of what happened in 
Libya, and GAO certainly stands ready to assist the Congress 
and this committee in addressing those issues going forward.
    Mrs. Schmidt. Thank you. I yield back.
    Mr. Wilson of South Carolina. Thank you, Mrs. Schmidt.
    We now proceed to Congressman Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    As of today, what would you assess the risk of this type of 
attack happening again somewhere against one of our Ambassadors 
or embassies? What would be your risk assessment?
    Mr. Courts. Congressman, I am not privy to the risk-
assessment information that State Department has at its 
disposal, so I can't answer that question.
    Mr. Poe. So you don't know?
    Mr. Courts. No, I don't.
    Mr. Poe. Do you feel like the State Department has done an 
adequate job of securing our embassies?
    Mr. Courts. I can't speak to Benghazi, because I don't know 
what the arrangements were there. I would say that when we 
looked in 2009 at the Bureau of Diplomatic Security, we found 
that there were a number of areas where the capabilities that 
they had in place were not where they should have been.
    Mr. Poe. You are talking about embassies throughout the 
world?
    Mr. Courts. That is correct. I am talking about the Bureau 
of Diplomatic Security worldwide.
    Mr. Poe. So have you assessed that assessment since 2009? 
In other words, have you determined whether there was follow up 
by the State Department to fix all those problems that you 
found in 2009?
    Mr. Courts. We made a recommendation in our 2009 report 
that the Department take a strategic look at the Bureau of 
Diplomatic Security's mission and properly match that with the 
resources, and to date, they have not fully implemented that 
recommendation.
    Mr. Poe. What does that mean, fully implemented? Have they 
done 5 percent? Ninety percent? Give me something I can----
    Mr. Courts. I can't give it to you in percentage terms. I 
would say that we asked them to take a more meaningful look at 
all of the diffuse missions that the bureau is responsible for, 
to rationalize them, and then after rationalizing them, to 
ensure that the resources that were needed, the staffing that 
was needed and all the other resources were in place, and that 
they do that sort of strategic plan at the departmental level.
    When I say that it is perhaps partially implemented, I am 
recognizing that the Bureau of Diplomatic Security itself has 
taken steps to improve their own strategic planning, but the 
Department hasn't taken the step that we recommended. And we 
think that is important because as I said before, the bureau 
itself is a support function. If they are told to secure the 
mission in Libya or anywhere else, they are going to salute 
smartly and try to do that, even if it means muddling through 
and pulling the resources from somewhere else.
    Mr. Poe. So if I understand you correctly, you came up with 
a valuation, a risk assessment of some kind, in 2009 for the 
State Department to help secure our embassies and our personnel 
overseas. That was given to the State Department. Here we are 3 
years later, and based on what you know of the original risk 
assessment, there are still things that haven't been done that 
you recommended. Is that a fair statement?
    Mr. Courts. I wouldn't call what we did a risk assessment, 
but I would say that they have not fully implemented the 
recommendation that we had in our 2009 report.
    Mr. Poe. Okay. Do you know what those items are that they 
have not fully implemented?
    Mr. Courts. The main thing that they have not done is, on a 
Department level, they have not done the strategic review of 
the Bureau of Diplomatic Security that we recommended. And we 
recommended that that review not only take a look at the 
resources and the missions as I mentioned but that it also 
address those challenges, those problems, those deficiencies 
that we had identified in our report, and that included the 
staffing shortages, that included the language deficiencies and 
the experience gaps and a number of other challenges.
    Mr. Poe. And is it still your recommendation that those 
items that haven't been done, whatever they are, should be 
done?
    Mr. Courts. Yes, sir.
    Mr. Poe. All right. The other question I had for you, in a 
hypothetical situation, based on what you have now learned 
about embassies and protection of embassies, if you had 
received a request for aid or help in the same situation, an 
Ambassador is in trouble outside the Embassy, our consulate 
compound, would you send help, or would you not send help?
    Mr. Courts. Congressman, I can't answer that question. I 
don't have the specifics of the security arrangements in 
Benghazi. I don't know what competing priorities existed at 
that time or what the factors for the decision were.
    Mr. Poe. Is it your understanding though that calls for 
help were ignored?
    Mr. Courts. Congressman, our work did not address the 
incident.
    Mr. Poe. So you don't know if that is true or not?
    Mr. Courts. No, I don't know.
    Mr. Poe. I yield back, Madam Chairman.
    Mrs. Schmidt [presiding]. Thank you.
    The Chair now recognizes Mr. Duncan from South Carolina.
    Mr. Duncan. Thank you, Madam Chairman.
    Save the best for last, I guess. The other side keeps 
talking about a $400-million increase request from the 
President. Do you know how many days it has been since the 
United States has had a budget?
    Mr. Courts. No, sir, I don't.
    Mr. Duncan. 1,296 days. The mathematician that you are, 
that is 3\1/2\ years, plus or minus. It has been 3\1/2\ years 
since the Nation has had a budget, and the President submitted 
a budget to the United States Congress, as he does every year I 
suppose. Do you know how many votes that budget got in the 
United States House of Representatives?
    Mr. Courts. No, Congressman, I don't.
    Mr. Duncan. Zero. It didn't get a single Democrat or 
Republican vote in the House of Representatives. When it was 
brought up in the Democratic-controlled Senate, how many votes 
did it get over there?
    Mr. Courts. I don't know that answer.
    Mr. Duncan. That number is zero, too. His request for an 
increase got zero votes in the United States Congress. It is 
not the amount of money that is allocated, it is how that money 
is being spent, and I appreciate you bearing with me as I 
pointed those facts out for the American people.
    The questions that have been asked today are questions that 
are on the minds of the American people. These aren't just 
questions of the Republicans or maybe not questions of the 
Democrats. These are questions that the American people have 
about what happened in Benghazi: Why there weren't, I get the 
questions, why there weren't Marines there? Why did we allow 
the embassies or consulates to be protected by elements of 
foreign governments? What is true sovereign territory of a 
sovereign nation in another country? Why didn't we do enough 
with assets in the region to protect and rescue those four 
Americans that bravely lost their lives in Benghazi? These are 
questions that the American people have, and I believe the 
American people deserve answers for.
    I think that we deserve answers as to why Ambassador Rice 
was run out to mislead the American people prior to an 
election. Those are valid questions of the American people that 
I believe we have the oversight responsibility here in the 
legislative branch to get answers to.
    Under the Vienna Convention, diplomatic facilities are 
supposed to be protected by the host nations. In the case of 
Libya, the U.S. facilities in Benghazi were under the 
protection of the 17th February Brigade, a local armed militia, 
which reportedly received monetary compensation and training 
from U.S. officials. Is that common? Is it common, and this is 
a question, how common is it for a U.S. diplomatic post to be 
under the protection of local armed militias rather than the 
central government forces? How common is that?
    Mr. Courts. I don't believe that is very common, 
Congressman.
    Mr. Duncan. What is the normal structure of the agreements 
that we have in these countries?
    Mr. Courts. Well, as you mentioned yourself, the Vienna 
Convention requires that the host government protect our 
diplomatic missions abroad, just as we are responsible for 
protecting foreign missions that are here in the United States. 
Usually it is just a local guard force and our own personnel 
that provide primary security for our diplomatic facilities. 
But all of the----
    Mr. Duncan. And that is common for other countries as well, 
is that correct?
    Mr. Courts. That is correct.
    Mr. Duncan. So they were guarding our U.S. Embassy or 
consulate, but they were also guarding--on September 11, 2012, 
there were militia members probably guarding the British 
Embassy in Benghazi?
    Mr. Courts. I am not familiar with specific security 
arrangements in Libya. I can't answer.
    Mr. Duncan. I will answer it for you, because the British 
had left Benghazi. So we ask the question, well, surely the 
militia, the 17th February Brigade was guarding the French 
Embassy in Benghazi. The answer to that is no as well, because 
they saw the hostile environment of Benghazi, they saw this 
coming and they left Benghazi and went back to Tripoli, as did 
the Red Cross.
    We were the last man standing. The American flag was there 
as a target for the violence that was going on in Benghazi, and 
we failed to recognize that on 9/11, a day that is a red letter 
day for American history, that our enemies, folks that want to 
do us harm and al-Qaeda and others, may do something to attack 
America. And we saw the pattern in Benghazi of an IED thrown 
over the fence, a bomb placed on the exterior perimeter that 
blew a hole that 40 men could be run through, pictures being 
taken by elements of the militia that is supposed to be 
guarding us.
    We missed those signs. Those are the questions that 
Americans wants answered, and I believe this Congress is going 
to get to the bottom of that. This is just the beginning in 
this committee, and I look forward to answering those for my 
constituents.
    I appreciate your service. Thank you. I yield back.
    Mrs. Schmidt. Did you want to add anything, sir?
    Mr. Courts. No, thank you.
    Mrs. Schmidt. Well, I want to thank you for your time. We 
have learned a lot and I wish you well.
    Our next panel, are you ready? You have been waiting a long 
time.
    Our second panel, we will start with Mr. William Young, a 
senior policy analyst at the nonprofit, nonpartisan RAND 
Corporation. Mr. Young managed and led intelligence collection 
operations for the national clandestine service for over 30 
years before he retired in 2011. He spent most of his career in 
the Middle East and South Asia working on counterterrorism, 
counterinsurgency and counterproliferation issues. He also 
served in the Office of the Director of National Intelligence 
as the Intelligence Community's mission manager for Yemen and 
Somalia as well as the national intelligence manager for Yemen. 
Prior to his work for ODNI, he was the Director of Operations 
Technology Office at the CIA.
    The next witness will be Dr. James Carafano, who is the 
deputy director of the Kathryn and Shelby Cullom Davis 
Institute for International Studies and the director of the 
Douglas and Sarah Allison Center for Foreign Policy Studies, 
both at the Heritage Foundation. Previously, Mr. Carafano was a 
senior fellow at the Center for Strategic and Budgetary 
Assessments. He served 25 years in the Army, achieving the rank 
of Lt. Colonel. Dr. Carafano writes a weekly column on national 
security affairs for the Washington Examiner and has written 
numerous books on defense and security.
    Our last witness will be Ambassador Ronald E. Neumann who 
is the president of the American Academy of Diplomacy. As a 
career member of the Foreign Service, he has served as 
Ambassador to Algeria, Bahrain and Afghanistan, as well as 
posts at the U.S. embassies in Iraq, the United Arab Emirates 
and Yemen, among others. He served as Deputy Assistant 
Secretary in the Bureau of Near East Affairs from 1997 to 2000 
and as director of the Office of Northern Gulf Affairs from 
1991 to 1994.
    Ambassador Neumann served as an Army infantry officer in 
Vietnam, which personally I want to thank you for your service 
in Vietnam and for all of you who have had military service. 
And you hold a Bronze Star, Army Commendation Medal and Combat 
Infantry Badge. In Baghdad, he was awarded the Army's 
Outstanding Civilian Service Medal. He has received numerous 
awards at the State Department rewarding his service.
    Without objection, the witnesses' written statements will 
be inserted into the record.
    Mr. Young, we will start with you.

  STATEMENT OF MR. WILLIAM YOUNG, SENIOR POLICY ANALYST, RAND 
                          CORPORATION

    Mr. Young. Madam Chair Schmidt, Ranking Member Berman, 
other members, thank you for the opportunity today to talk to 
you about Embassy security. What I would like to do is offer a 
framework, a way to look at Embassy security or Diplomatic 
Security in high-threat environments, and to offer suggestions 
to improve it.
    It is good to begin with an understanding that it is not 
possible to mitigate all risk in environments like this. Once a 
decision is made to establish a diplomatic presence, planners 
at the State Department look at the actual facility that will 
house our people, the housing areas if they have to live 
outside the diplomatic compound, and also the routes to and 
from.
    First and foremost among all the considerations for 
planning for security in these types of areas is the support of 
the local or host government. Without it, in my opinion, it is 
not possible to secure any civilian facility in a high-threat 
environment.
    The local government, whether it is a militia or whether it 
is the actual government, should be willing to provide a 
visible military presence at the outside of the mission. They 
should be willing to provide barriers. They should be willing 
to close the streets in order to increase the setback from the 
local population. They also should be willing to provide 
information about what is happening in the neighborhoods 
surrounding the mission in order to give us some early warning.
    Second in importance when planning for security for these 
types of missions is knowing or having an awareness of what 
actually is happening outside the fence line of the Embassy. 
This can be done using roving patrols, local investigators, 
which can establish--or who can establish relationships with 
local shop owners, with neighborhood committees. All of these 
people in the neighborhoods around a mission have a vested 
interest in protecting their way of life, their families, their 
businesses. They often know what is going to happen before it 
happens. We need to be able to set up mechanisms to collect 
this information and to bring it quickly back into the mission 
multiple times a day so that when action is necessary it can be 
taken in a timely manner.
    The third leg of the security stool is the actual mission 
itself, the structure of the building and the layout of the 
compound. Is it an Inman style building, meaning does it have 
blast-resistant walls and glass, does it have sufficient 
setback from the street? Or is it a residence that was the only 
property that was available for us to move into? If so, then 
measures can be taken to harden such a facility, locks and 
gates and walls, local guard force, which is typical in these 
instances, a Marine security detachment of guards, perhaps a 
quick reaction team from Diplomatic Security, all of which is 
intended to deter an attack. Terrorists do not want to fail. 
They have resource considerations also. So to the extent we can 
deter their attack, the better.
    Technology can help in this regard. I consider it the 
fourth leg of the stool when talking about security for these 
places. Long-range acoustic devices can be fitted on the 
outside of the missions to repel attacks. They can be 
configured for the bottoms of armored vehicles to take our 
people to and from work. Cameras can be fixed to the outside 
walls of the mission with pattern-recognition software to 
determine what is happening on the streets in order to give us 
a heads up, some early warning. We can monitor social media for 
the intensity of language being used and to find out again in 
terms of early warning why the shops might be closed tomorrow 
afternoon, and then we can send our local investigators out in 
order to get more of the detail.
    Other lower-cost measures can be taken, although these 
other measures are not high cost. Plywood can be put on the 
windows to prevent shattered glass from killing people. Wire 
mesh can be put over the facility to pre-detonate certain types 
of rockets that are shot.
    So all of these measures are helpful, but none of them by 
themselves or even in tandem can prevent a full military 
assault on an Embassy compound. This is why I think it is 
important to focus on shaping the way the local residents view 
our diplomatic presence and, to the extent possible, to create 
a deterrent posture, enough of a deterrent posture to convince 
the attackers to go elsewhere.
    Thank you again for the opportunity, and I will try to 
answer any questions you have.
    Mrs. Schmidt. Thank you so much.
    [The prepared statement of Mr. Young follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mrs. Schmidt. Dr. Carafano.

 STATEMENT OF JAMES JAY CARAFANO, PH.D., DIRECTOR, DOUGLAS AND 
 SARAH ALLISON CENTER FOR FOREIGN POLICY STUDIES, THE HERITAGE 
                           FOUNDATION

    Mr. Carafano. Thank you so much. The greatest honor that we 
can bestow on the fallen and the debt we can repay to their 
families is to do better. I want to begin by saying why it is 
not just important to learn the lessons of Benghazi but to 
apply them.
    The first is if you look at al-Qaeda and its affiliates, 
they have had a tradition or a practice that once they have 
settled on a tactic, they come back to it again and again and 
again. So regardless of who actually perpetrated this attack, 
you can't but believe that al-Qaeda and its affiliates will 
look at this, and this will be a target in the future.
    The second thing I think we have to remember is this is a 
department at war. The State Department has been at war for 10 
years. The Bureau of Diplomatic Security has been significantly 
grown, their missions have expanded, their resources have 
expanded, their responsibilities have expanded. This is a 
department with very deep operational experience in dealing in 
high-risk, high-threat areas. This is the kind of attack we 
should have expected, and indeed, a majority of the attacks 
against U.S. assets in 2011 were in the Near East region. It is 
like we spent 10 years getting ready for 9/11, and then what we 
got was a 9/11.
    So where do we go from here? And I think what this 
committee can best focus on is how do we turn tragedy into a 
good case study where we can extract lessons learned that can 
be applied to systematic reform if that is what is called for.
    When you look at security in high-threat areas, it is 
basically a belt and suspenders business. There are really four 
key areas, and that really prompts four key questions. And I 
really do believe if anything I have heard said today makes 
sense at all, getting the answers to these four questions is 
absolutely essential.
    The first is, what were the counterterrorism and early-
warning mechanisms that were in place? Look, you can't 
childproof everything, and we know from experience the single 
best way to stop a terrorist attack is to stop it before it 
gets started. So that is particularly important I think in 
light of the fact that this administration put its 
counterterrorism strategy in 2011.
    The second question is look--the administration put a 
counterterrorism strategy in place in 2011.
    You are going to get attacked, so the second question is 
what risk assessment did you do, and what kind of risk-
assessment mitigation message did you put in place to deal with 
that? The State Department recognizes this. That is why there 
are regional security officers. They play a pivotal role in 
doing risk assessments and organizing risk mitigation.
    The third question is, look, I don't care how safe you 
think you are, you may get attacked anyway. So then the 
question is, what kind of contingency plans were in place to 
respond to rescue, to recover; how well were they exercised? 
How full and complete were they? Again, the State Department 
recognizes this. This is why they form emergency action 
committees to coordinate these kinds of plans and then 
hopefully integrate them with other agencies.
    And, finally, once a crisis happens, you want to draw on 
all of the resources that are reasonably available to respond. 
So then you really want to understand what was the process for 
interagency cooperation and crisis management. Again, that is 
why we have a Diplomatic Security Command Center at least for 
the State Department worldwide to organize these kinds of 
things.
    My advice to this committee is, look, whether these are 
markers that need to be laid down for the ARB or what other 
kinds of investigative or review processes are in place, you 
get to the answers to these four questions, and then we can do 
better.
    Thank you.
    Mrs. Schmidt. Thank you.
    [The prepared statement of Mr. Carafano follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mrs. Schmidt. Ambassador Neumann.

   STATEMENT OF THE HONORABLE RONALD E. NEUMANN, PRESIDENT, 
                 AMERICAN ACADEMY OF DIPLOMACY

    Mr. Neumann. Thank you, Madam Chairman, and thank you, 
Representative Berman, for asking me to join this hearing that 
has a focus on the future as well as the past.
    This focus needs a perspective that embeds security within 
the context of our larger diplomatic purpose. Thus I think my 
added value to you is in speaking about the issues of carrying 
on diplomacy in a dangerous and difficult world. I have four 
basic points to make.
    First, as you have heard from other witnesses, there is no 
absolute security, and there will not be. We recently saw a 
full-up Marine base in Helmand suffer a perimeter breach, loss 
of life and destruction of aircraft by about 15 attackers.
    Second, remember that the central issue is about balance, 
how much risk to take to accomplish what mission, and how 
important is that mission to our national purpose? Many 
decisions of this type will need to be made in the field by 
senior diplomats working with their security professionals.
    Many foreign governments will not allow all the security 
measures that we deem necessary. Sometimes we will shove them 
into agreement. But, for example, many of our embassies are 
located closer to streets than we would like in the age of car 
bombs, and many of these countries will not agree to close all 
of the streets we would like closed. That includes ones in much 
more civilized or much more calm areas.
    So, all I am really pointing out is there are constant 
decisions all over the world about how much risk to take. 
Perhaps, in some cases, we should pull out rather than take 
risks. But those are going to be difficult decisions. Just to 
suggest how to think about that, let me suggest the real one of 
Libya and the likely future one of Syria.
    In Libya, we have a weak but sensitive government and 
extremely difficult security situation and a national interest 
in trying to support more moderate elements to help the country 
to a stable future, free of extremism. In this fluctuating 
situation with a multitude of political players, I believe our 
policy interests absolutely require on-the-ground work to know 
the people, make judgments about what will work and suggest 
corrections essential to policy implementation.
    Perhaps one could argue that in Libya, it is just too 
dangerous and we shouldn't be there, we have to pull out. But 
even if you could make that case for Libya, consider Syria. 
When the day comes that Bashar el Assad leaves, the situation 
in Syria is likely to be at least as dangerous and chaotic as 
the one in Libya. Iran, Hezbollah, Iraq, Turkey and Israel will 
all have strong interests in what happens inside Syria. I doubt 
that we will be able to say that this is just too dangerous, 
and we have to leave the future to others, and that will mean 
taking risks with our people.
    My third point touches on the role of the State Department 
in supporting security. I just want to make the basic point not 
about whether there was enough money and the issues you were 
talking about this morning, but that when security is tight, 
there is always a constant tension between new demands in 
evolving situations and the difficulty of finding funding in 
budgets that have to be established years in advance. I think 
there is some reason to think about whether there should be 
some form of reserve funds that have more flexibility.
    My final point, and I think it is perhaps my most important 
one, deals with the level of responsibility for risk. Some 
decisions are Washington-only to be on the ground. The second 
issue of providing security resources is shared between field 
and headquarters. If State says no to a request, an Ambassador 
must decide whether and how to appeal or not.
    But there remains a critical area of responsibility to 
consider, and that is the need to leave space for decisions in 
the field about the balance between risk and benefit. A zero 
risk approach, a search for fault that becomes overly 
politicized and turns into a gotcha game will increasingly 
create a political climate in Washington that is 
counterproductive for achieving our foreign policy goals.
    Senior officials of this and future administrations, 
fearing responsibility for whatever goes wrong, will reinforce 
a climate that is already too far advanced, in which our 
diplomatic personnel spend their time behind walls rather than 
getting out.
    A great many of my, I should say, former diplomatic 
colleagues are prepared to accept risk, as they have when 
volunteering for Iran and Afghanistan. Many feel that their 
jobs are already excessively hampered by our security 
restrictions. Not every risk is worth running, but neither can 
America's diplomatic interests be achieved from behind walls 
and razor wire.
    I think it is absolutely correct to do a post mortem, as 
you are doing. After all, it was Ambassador Stevens who made 
the judgment that he should travel to Benghazi. As you inquire 
about how to adapt, I hope you will ask how to avoid 
overreaction, because the policy costs of security 
considerations need to be weighed along with the risks that are 
posed to our diplomats.
    These are difficult decisions, and that is why I believe 
the Congress and the executive have a mutual responsibility to 
support reasoned decision making in the field by our senior 
diplomats as well as giving them the resources to be as safe as 
possible.
    Thank you for giving me the opportunity to appear.
    [The prepared statement of Mr. Neumann follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Ros-Lehtinen [presiding]. Thank you very much, 
Ambassador.
    And thank you to all of our witnesses.
    I had read your written remarks. In my opening statement, I 
had referenced a New York Times op-ed by Ambassador Bushnell 
who had served in Kenya during the horrific bombing of our 
Embassy in Nairobi in 1998 and she entitled that ``Our 
Diplomats Deserve Better.''
    In that op-ed, she discusses the dangers and the risks for 
those who pursue diplomacy on behalf of our country and 
acknowledges that not every danger can be prevented, but she 
offers some advice, and I wanted your comments on it.
    She says, The Foreign Service is short on people, and those 
people are rushed into the field short of training. We build 
concrete fortresses when we have to, but we don't invest in the 
mobile communications and security technology that would 
protect diplomats when they leave the Embassy, as they must. 
What kinds of technology systems, training and deployments do 
we need to get results through diplomacy in the 21th century? 
She says, These are difficult questions that will remain 
unanswered while diplomats disappear from public view once 
again until the next time someone dies. Then we see the same 
sorry responses all over again.
    So I ask our witnesses, can you address the questions that 
she references? What kind of technology systems and training 
and deployment do we need in this new century that keeps our 
diplomatic personnel safe as they seek to advance U.S. 
interests abroad?
    Mr. Young.
    Mr. Young. Thank you for the question. During my remarks, I 
spoke about the use of social media----
    Chairman Ros-Lehtinen. Could you put that just a little bit 
closer.
    Mr. Young. Certainly. Is that better? During my remarks, I 
spoke about the use of social media analytics as a way of 
monitoring not just what is happening beyond the walls of the 
mission, but also to gauge the intensity of the language being 
used to determine how violent protests are becoming or perhaps 
if there are plans afoot that we need to know about. I think 
that it would be useful to establish some kind of study to look 
at how that could best be done, by leveragaging existing 
capabilities within the government, such as the Centers for 
Disease Control in Atlanta, which has an excellent way of 
predicting the outbreak of infectious disease. Anyway, that is 
it.
    Chairman Ros-Lehtinen. Thank you very much.
    Doctor?
    Mr. Carafano. Thank you. I spent 25 years of my life being 
a risk manager. Every day when I was in the Army, I planned how 
to take men and women into battle knowing that some of them 
could be injured or killed and knowing that my job was to 
figure out how to minimize that risk and at the same time get 
the mission done. That is just the nature of the security 
business.
    One of the reasons why I emphasized the four questions that 
I did in my testimony was that that will help us really 
understand was it is all about risk taking. Was the risk taking 
prudent and at all levels of government, from the highest to 
the lowest? That I think is really the most invaluable 
knowledge of all, because we need to learn how we can--risk 
managers are always going to have to deal with the resources 
they have and the conditions they face. So the best resource we 
always have is a brain that knows how to be a prudent risk 
taker.
    That said, in answer to your second question, the other 
great value I think would be of answering these four questions 
is it will identify a menu of things where if we had had 
another tool in the tool kit or a different tool in the tool 
kit, how may that have helped in the range of these things? How 
may it have helped to do counterterrorism or early warning 
better? How may it have helped to do risk mitigation better? 
How may it have helped us plan on how we could bring a resource 
in better? Or how could we have used the resources we have 
available more effectively to integrate them and operationalize 
them?
    So, again, if you don't get the answers to the questions, 
you are not going to be able to know if these things--what is 
the most prudent thing I can do to make me better prepared to 
respond.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Ambassador.
    Mr. Neumann. Thank you. On the making of judgments about 
risk, which is one I have had to do also in various capacities, 
the only point I wanted to add is as you find the answers to 
the specifics of Benghazi, please remember to leave enough room 
for people in the field to make decisions, understanding that 
sometimes they may make a wrong decision; sometimes they may 
make a bad one; and sometimes they may just run out of luck. 
But we have got to have room to do that. Otherwise we will all 
be in our bunkers, and you will not be well informed about much 
of anything.
    On your second question about what we need to do about 
training, that was worth coming here and a long wait just to 
answer that question, because in my day job at the American 
Academy of Diplomacy, we did an extensive report about 1\1/2\ 
years ago on professional education and training for diplomats 
where we have quite a few lapses and a lot more that needs to 
be done. I call that report to your attention because I think 
it is still important. But one of its key conclusions is that 
we still need to fund a training reserve or float for the State 
Department if we are to engage in long-term training. There is 
a huge difference.
    Chairman Ros-Lehtinen. Thank you very much.
    Thank you, gentlemen.
    I am so pleased to turn to my good friend Mr. Berman for 
his questions.
    Mr. Berman. Thank you very much, Madam Chairman, and I 
thank all of you. In a very short time, you came with a lot of 
sort of metrics for analysis here.
    I want to follow, your Syria reference was a very 
interesting one. There for quite a while after the protests and 
demonstrations started against Assad, we kept our Embassy open 
and our Ambassador there and implementing a policy that the 
administration had. It was quite evident he performed a very 
useful role in some of the actions he took, and my assumption 
is in the information he provided back to Washington. There 
came a point where I guess, under the way you guys are looking 
at it, the risks of his safety and survival and other personnel 
there became so great that we were required to pull him out.
    Now, Ambassador Neumann, you raised the question of 
assuming there becomes a point we hope when Assad falls and 
something replaces it, how important our being able to have 
information and, therefore, how important our need for 
diplomatic posts and personnel there are, having large 
implications for an entire region.
    Mr. Young says unless you can rely--his first point was you 
got have got to have a local military protection operation 
there. He didn't say, if you don't, don't go there, but the way 
he said it made me think that was the implication. If you can't 
rely on it, you shouldn't even open up a post there. What is 
your reaction to what he said?
    And is that what you meant, Mr. Young?
    Mr. Young. Yes, that is what I meant, sir.
    Mr. Berman. And given all the compelling arguments for 
reestablishing outposts in Syria at that time, how do you deal 
with that, Ambassador Neumann?
    Mr. Neumann. I follow this with a good deal of interest 
because our Ambassador there, Robert Ford, was my deputy in 
Bahrain and my colleague in Baghdad and a very close friend of 
mine. I know some of the decisions he made and why he made 
them. And the basic point is that you can't make those 
decisions on a flip-switch basis from a distance. You will have 
to make them on the ground with a very high focus on detail.
    There may well not be a government. We have to hire local 
security. We depended for years in Lebanon, even during much of 
the Civil War, on local security which we hired, trained and 
vetted. I depended on local guards in Algeria when we lived 
under a blanket death threat to all foreigners for my moves 
around town with a few Americans to supervise them. We had some 
risk mitigation, I won't bother you with the details of, to 
make sure that we didn't get betrayed by people who might have 
somebody's mother at home with a knife at her throat. So there 
can be a point at which you just can't do it, as Ambassador 
Ford found in Syria.
    Mr. Berman. By the way, did he make that decision or did 
Washington make that decision?
    Mr. Neumann. He was highly involved in it. And it came to a 
point where there was a larger risk to the total mission that 
he felt he couldn't expose his staff to, even though he was 
prepared to take a fair amount of risk himself and did in 
several cases.
    So my only point is I don't think you can make that 
decision in advance or on a very general basis of is it going 
to be risky or not. It is going to be risky. The question is, 
can you mitigate the risks? And then you are going to have to 
work down through the mitigation in detail.
    Mr. Berman. Let me just quickly ask in my remaining time, 
do you know enough now to know whether it was a mistake to put 
a temporary consulate compound in Benghazi, or in hindsight, 
which is always great, or do we still not know enough to know 
whether that was the right call?
    Mr. Neumann. I don't think I know enough. I would frame the 
question that needs to be answered in part as to whether the 
mission or anybody around the government had any information of 
the size of attack that eventually overwhelmed them. If that 
threat information was there, then obviously, we were 
overmatched. If that threat information was not there, you deal 
with the threats you have got as best you know them. If you had 
to deal everywhere in the world with every level of 
hypothetical threat, we could not operate anywhere.
    Mr. Berman. That is why it is called risk management.
    Mr. Neumann. Yes. And the trouble is when you run out of 
luck or you make a bad call, you know, then you haven't managed 
it well. But the whole problem of that is you are always 
managing, as Dr. Carafano said, a level of risk and danger, 
which is why I buried a few friends.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    Mrs. Schmidt of Ohio is recognized.
    Mrs. Schmidt. Thank you.
    I want to thank all three of you for your testimony.
    I have certainly learned a lot. My question to all three of 
you is once we get a clear idea of why the situation happened 
and the miscommunication that apparently occurred during and 
after, we will have a better chance to understand future 
opportunities to mitigate the risk. Am I correct on that?
    Mr. Young. I would assume so, yes.
    Mr. Neumann. You may. You may not. The generals are often 
accused of fighting the last war; the civilians are going to 
have the same problem. So we will have a better idea of how to 
deal with certain kinds of threats, whether that will be the 
threat that comes to us.
    Also, Libya poses some interesting issues. It is close 
enough to the Mediterranean; there are ways you could, I 
suppose, have had military reinforcements. We are going to have 
a lot of posts in Africa where you won't have those kinds of 
options. So there will certainly be lessons learned that will 
be valuable. Whether they will reach the totality of the 
threat, I would doubt.
    Mr. Carafano. You know, I do think that with the publicly 
available information, it is a fair conclusion to say that this 
was a predictable and reasonable threat. I also think it is a 
predictable and reasonable threat that we could likely see 
again a U.S. diplomatic facility in a high-threatened 
environment in the future.
    That said, I don't think there is enough publicly available 
information at this point to conclude what is the best 
combination of counterterrorism changes, risk reduction, better 
contingency planning, better crisis response, which would have 
mitigated the risks they faced in abuse Benghazi.
    Mrs. Schmidt. My second part to that is once the air clears 
and we get a better sense of what happened, political rhetoric 
will continue. And I ask all of you, because you are very 
level-headed, is to find ways to get out what you believe is 
the right response of what we should be doing. You write for 
The Examiner, Doctor, you have an opportunity because you have 
the power of the pen, but so do both of you.
    I am going to be a citizen after the first of the year, and 
I am going to be sitting back in my chair wondering what is 
going on and I would like to hear it from some level-headed 
sources. Thank you.
    Mr. Carafano. I do coordinate the national security and 
foreign policy research at the Heritage Foundation, and we will 
be assessing the results of the publicly available information, 
whether it is from the ALB or other sources, and I am providing 
evaluation of that and if it is adequate and if the 
recommendations that are drawn from that are adequate.
    Mrs. Schmidt. Good. Get it out there to the public. Thank 
you.
    Chairman Ros-Lehtinen. Thank you, Mrs. Schmidt.
    And Mr. Sherman, the ranking member on the Subcommittee on 
Terrorism, Nonproliferation, and Trade is recognized.
    Mr. Sherman. Thank you, Madam Chair.
    The best way to mourn our heroes is to avoid the tendency 
here in Washington to politicize things and to look at Dr. 
Carafano's approach of cost-benefit. We have got to do 
everything possible so that we have the maximum State 
Department effectiveness while the minimum risk to our 
personnel. And the most fitting way to honor our heroes is to 
have a hearing that is designed to do just that and to fix the 
problem to the extent it can be fixed.
    And this hearing, I think, has done a lot of that. It has 
also had some unnecessary political attacks. They call it the 
fog of war for a reason, but the military is designed to deal 
with the fog of war. To think that you always get it right when 
you are subject to a war-like attack and you are not even a 
war-fighting operation is absurd.
    Ambassador Susan Rice has done an outstanding job. Yes, she 
presented to us the intelligence provided to her by the 
intelligence community. I would point out that many State 
Department officials came into this room and presented the 
intelligence community's views on weapons of mass destruction 
in Iraq. That is not a reason to criticize those who are 
presenting.
    And what strikes me as utterly bizarre, because I 
understand politics perhaps better than those of you who focus 
on foreign policy, is in what bizarre universe is there 
political gain by trying to convince the American people that 
there aren't armed terrorist groups in the most lawless cities 
in the Middle East? No one attempted to convince the American 
people of that. No one tried to say, oh, no, we couldn't have 
an al-Qaeda type group operating.
    But also in what bizarre universe is it politically helpful 
to tell the American people that any old YouTube could be a 
spark on a tinderbox that causes thousands of Muslims in the 
Middle East to charge into our armed security, giving up their 
own lives in a few cases, because they are so angry at a 
YouTube? I would say that would be an even more dangerous world 
to think that that would be reflective of any significant 
portion of opinion on the Arab street.
    The fact is we do have both problems. There are armed 
terrorist groups, and there are thousands of people who hate us 
a lot, and the slightest provocation or YouTube video can set 
them off.
    Dr. Carafano, and perhaps others will answer this as well, 
we had in Benghazi a situation where perhaps dozens of well-
armed attackers went to our diplomatic facility. The host 
country didn't provide significant help for many, many hours.
    Is there any plan--I mean, I realize in Iraq, we have the 
most enormous Embassy in the world, but assuming we are dealing 
with what could possibly be done in consulates and temporary 
diplomatic facilities in secondary cities in relatively small 
countries, is there anything we can do that would allow us to 
deal with dozens of well-armed, planned, coordinated attack 
while not getting any help from the host government for many 
hours?
    Mr. Carafano. Congressman, you raised a really excellent 
point, and again, from the publicly available information, I 
think your conclusion is reasonable that given the level of 
security that was available, even adding people wouldn't have 
been sufficient to mitigate the risk of that base being 
overrun. I think that appears to be a very reasonable and 
accurate conclusion.
    But that is why I laid out the four questions, because then 
you have to ask the other questions, given that, that is a very 
reasonable conclusion and we knew that beforehand, was what 
these people were doing, was that so important that running 
that risk was valid? And if it was, we also, we never leave 
people alone so, if that was going to happen and the worst-case 
scenario did happen, did we think through, and again--I can't 
tell this from the publicly available information--how are we 
going to deal with that, and did we act on our contingency 
plans? And again, that is why I laid out the stress we need the 
answers to all four of the questions to really draw prudent 
conclusions.
    Mr. Sherman. I don't know if any other witness has a strong 
desire to answer that question, and my time has expired so 
regardless of what that----
    Chairman Ros-Lehtinen. Thank you, Mr. Sherman.
    And thank you, Mrs. Schmidt, and thank you to our witnesses 
for excellent testimony and good answers, and our committee 
looks forward to continuing to examine the risks that our U.S. 
personnel undertake as they are deployed to dangerous 
environments and the risks inherent in operating places like 
Benghazi, compounded by the absence of clearly defined and 
capable support from host countries remain a very complex set 
of circumstances.
    So we remember them every day, and we thank the men and 
women who are proudly serving our Nation in many different 
circumstances throughout the world.
    Thank you very much, gentlemen, for your testimony, and to 
our members, and the committee is now adjourned.
    [Whereupon, at 1:09 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
